APPENDIX

(

J

/*.

Case: 20-10956

Date Filed: 09/02/2020

Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10956-G
DANNY L SMITH,
Petitioner-Appellant,
versus
STATE OF ALABAMA,
LIMESTONE PRISON,
WARDEN,
Respondents-Appellees.
Appeal from the United States District Court
for the Northern District of Alabama
ORDER:
Danny Smith, an Alabama prisoner serving multiple life sentences for seven separate
felony convictions arising from two criminal cases, filed the instant 28 U.S.C. § 2254 petition,
which the district court denied. He moved for reconsideration, pursuant to Fed. R. Civ. P. 59(e),
the court denied the motion, and denied him a certificate of appealability (“COA”) and in forma
pauperis (“IFP”) status. He now moves this Court for both.
Mr. Smith’s claims do not warrant a COA because they all were procedurally defaulted, as
they were dismissed by the state court on adequate and independent state grounds, namely
Alabama Rule of Criminal Procedure 32, which prohibits challenging multiple judgments in one
petition and prohibits raising claims that could have been, but were not, raised on direct appeal.
These findings are adequate, as Mr. Smith’s state habeas petitions each challenged his guilty pleas

Case: 20-10956

Date Filed: 09/02/2020

Page: 2 of 2

from both his November 2007 and August 2008 cases, and he did not directly appeal his
convictions or sentence. As such, Mr. Smith’s claims therefore all are subject to procedural default
in federal habeas review. See Bailey v. Nagle, 172 F.3d 1299, 1302-03 (11th'Cir. 1999); Judd v.
Haley, 250 F.3d 1308, 1313 (11th Cir. 2001).
Moreover, Mr. Smith does not warrant excuse for this default because he did not argue
actual innocence and failed to demonstrate sufficient cause for his default. McKay v. United States,
657 F.3d 1190, 1196 (11th Cir. 2011). Finally, no COA is warranted in the denial of Mr. Smith’s
Rule 59(e) motion, because he offered no newiy discovered evidence, nor manifest errors of law.
See Arthur v. King, 500 F.3d 1335,1343 (11th Cir. 2007). As such, Mr. Smith’s motion for a COA
is DENIED, and his motion for IFP status is DENIED AS MOOT.

/s/ Jill Pryor
UNITED STATES CIRCUIT JUDGE

2

appendix

Case: 4:17-cv-01223-RDP-JEO

Document#: 16-1

Date Filed: 07/11/2018

Page 1 of 6 FILED
2018 Jul-11 AM 11:4
U.S. DISTRICT COUR
N.D. OFALABAM/

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
MIDDLE DIVISION
DANNY L. SMITH,

)
)

Petitioner,

)
)

)

v.

Case No.: 4:17-cv-01223-RDP-JEO

)

STATE OF ALABAMA, et al„

)
)

Respondents.

)

ORDER
The petitioner has filed yet another motion attempting to stay this action,
reinstate a previously dismissed action, investigate an allegedly stolen § 2254
petition, with an additional habeas petition attached which includes further
allegations of mail theft. (Doc. 15). Once again, the court instructs the petitioner
that his action which was eventually docketed as l:18-cv-00688-MHH-JEO was
not stolen by prison officials, but instead was filed as an amended petition in this
action and therefore not given a new docket number. (See Docs. 10, 11, and 12).
When the petitioner again submitted the petition, the clerk’s office opened a new
case.

Because the court found all of the petitioner’s claims arise from one

sentencing, with all the sentencings running concurrently, the new case was closed
and the new petition filed as an amendment in the this case. The petitioner’s
“Motion to Cause Investigation of Legal Mail Theft and Motion to Postpone

Case: 4:17-cv-01223-RDP-JEO

Document #: 16-1

Date Filed: 07/11/2018

Page 2 of 6

Proceedings” (doc. 15) is DENIED. To the extent he attempts to file an additional
habeas petition, he is instructed as follows:
As previously explained to the plaintiff, because all of the claims in this
action, and in l:18-cv-00688-MHH-JEO, arise from the same state court and the
same sentencing, they are properly considered in one federal habeas petition. Rule
2(e) of the Rules Governing Section 2254 cases states:
(e) Separate Petitioner for Judgments of Separate Courts.
A petitioner who seeks relief from judgments of more than one
state court must file a separate petition covering the judgment or
judgments of each court.
Id., see also Rainey v. Sec’y for Dept, of Corr., 443 F.3d 1323, 1327 (11th Cir.
2006) overruled on other grounds by Ferreira v. Sec’y, Dept, of Corr., 494 F.3d
1286 (11th Cir. 2007) (“A petitioner is permitted to challenge multiple judgments
in a single petition under Rule 2(d) of the Rules Governing Section 2254 Cases in
the United States District Courts.”);1 Werdell v. Dept, of Corr., 520 Fed.App’x 854

1 As explained by the Court in Rainey, Rule 2(d) of the Rules Governing Section 2254 Cases
used to state:
[A] petition shall be limited to the assertion of a claim for relief against the
judgment or judgments of a single state court (sitting in a county or other
appropriate political subdivision). If a petitioner desires to attack the validity of
the judgments of two or more state courts under which he is in custody or may be
subject to future custody, as the case may be, he shall do so by separate petitions.
2

Case: 4:17-cv-01223-RDP-JEO

Document #: 16-1

Date Filed: 07/11/2018

Page 3 of 6

(11th Cir. 2013) (“The judgment in this case is vacated and the case is remanded so
that the district court can ...

oceed in that court without

tl

dismissal on the ground thaMitviolated Rule 2(e) of theRjAles Governing Section
2254 Cases.”).
According to state court records, the Circuit Court of Etowah County
sentenced the petitioner on seven distinct charges on August 7, 2008.

(See e.g.,

doc. 7-3 at 17 (“SMITH was sentenced on all case No’s, as state above, on August
[7], 2008.). In CC 07-786 and CC 07-787, the record reflects the sentences in all
seven cases will run concurrently.
^

fA

(Docs. 7-1 and 7-2).

According to the

petitioner, because he did not plead guilty to all seven charges on the same date, he

''should be able)to proceed on multiple, simultaneous petitions. (Doe. 15 at 2).
%

However, he then requests this court “set aside the stay and abeyance of the first §
2254 petition under case no. l:18-cv-00688-MHH-JEQ, and join this sister petition
with first litigation for purposes of ‘considering’ a single § 2254 proceeding ...”
(Doc. 15 at 9).
Rule 2(d), Rules Governing Section 2254 Cases in the United States District Courts (emphasis
added). In 2005, the Rules were amended and the relevant provision became Rule 2(e), quoted
above. Rainey, 443 F.3d at 1327 n. 5.
2 Those cases, all in the Circuit Court of Etowah County, Alabama, are as follows: CC06-269,
Assault 1st, guilty plea August 7, 2008; CC 07-41, ASORCNA violation, guilty plea August 7,
2008; CC07-784.01, Burglary 1st, guilty plea August 7, 2008; CC07-784.02, Assault 2nd, guilty
plea August 7, 2008; CC07-785, Criminal Mischief 2nd , guilty
—A
n 2008; CC07-786,
<^™n not
plea August" 7,
i
ord
„
___plea
i__ xt
_______l___ t6,onm.
nz
Burglary
3rd guilty
November
2007; CC07-787,
Theft of Property 3rd, guilty plea
November 6, 2007.
3

Case: 4:17-cv-01223-RDP-JEO

Document #: 16-1

Date Filed: 07/11/2018

Page 4 of 6

The defendants assert, inter alia, this petition is untimely because under 28
U.S.C. § 2244(d)(1) the petitioner had one year from the date his convictions
became final to file a petition. (Doc. 7). From the sentencing date of August 7,
2008,3 the petitioner had forty-two days to file an appeal, until September 18,
4v

2008. Because no appeal was filed within that time frame, his convictions all
became final on September 18, 2008, and he therefore had until September 18,
2009, in which to file a petition here. See McCloud v. Hooks, 560 F.3d 1223, 1229
(11th Cir. 2009) (citing Ferreira v. Secretary for the Department of Corrections,
494 F.3d 1286, 1293 (11th Cir. 2007) (“AEDPA’s statute of limitations begins to
4\ run fro
i'o'

/ -

the date both the conviction and the sentence) the petitioner is serving at

1—r" ^

------------- ------------------------------------------- —------------------- -—

__________________________

the time he files his application becomeiC^^Jecause^dgmenris based onjbotih}
(^thTconviction ancTthe^entence?^. Any Rule 32 petition properly filed within that
time limit tolls the statute of limitations during its pendency. 28 U.S.C. §
w
2244(d)(2). The petitioner here filed multiple petitions in the state courts for Rule
32 relief. The undersigned does not address this contention at this time other than
to note only that relevant analysis will apply to all seven of the convictions with
concurrent sentences challenged in ‘the/fwo separate, an# now consolidated,
f

petitions filed with this court.

V

3 The respondents repeatedly refer to these pleas and sentencing as occurring on August 5, 2008.
(See e.g., doc. 7 at 2). However, the records filed in support of their response clearly state the
pleas occurred on August 7, 2008. (Docs. 7-1, 7-2).
4

:

Case: 4:17-cv-01223-RDP-JEO

Document #: 16-1

Date Filed: 07/11/2018

Page 5 of 6

For the reasons set forth above, the petitioner is ORDERED to amend his"
petition. He is instructed that he is to include in the amended petition all of his
claims for each of the seven underlying state court actions for which he was,"
sentenced on August 7, 2008, regardless of the date on which he pleaded guilty.
The petitioner is further instructed he must use the court’s form for a petition under

v
/

28 U.S.C. § 2254 for writ of habeas corpus. See Rule 1(d), Rules Governing
Section 2254 Cases. The petitioner must write “4:17-cv-01223-RDP-JEO” at the

4

-

top of his amended petition. The petitioner shall not cite legal authority in the
K

amended petition. Rather, he must clearly set forth each ground for relief, along
'W

with the supporting facts for each ground specified, on the form provided. See
Rule 2(c)(1) and (2), Rules Governing Section 2254 Cases.
The petitioner is further instructed that he may not include any extraneous
claims or facts. He may not include allegations of a stolen or missing 28 U.S.C. §
2254 petition. He must include EVERY claim he has from EVERY case for
which he was sentenced on August 7, 2008. The petitioner is instructed that any
contention not included in the amended petition filed pursuant to this Order will be
deemed abandoned.

See e.g., Cromartie v. Warden, Georgia Diagnostic &

Classification Prison, 2017 WL 1234139, at *1 n. 1 (M.D. Ga. Mar. 31, 2017),
certificate of appealability denied sub nom., Cromartie v. GDCP Warden, 2018
5

Case: 4:17-cv-01223-RDP-JEO

Document#: 16-1

Date Filed: 07/11/2018

Page 6 of 6

WL 3000483 (11th Cir. Jan. 3, 2018) (citing Blankenship v. Terry, 2007 WL
4404972, at *40 (S.D. Ga. 2007) (stating that claims not briefed are abandoned
because “mere recitation in a petition, unaccompanied by argument, in effect
forces a judge to research and thus develop supporting arguments—hence,
litigate—on a petitioner's behalf’) (citations omitted).
The petitioner is therefore ORDERED to file an amended habeas
application, on the form provided, within thirty (30) days of today’s date. The
petitioner’s failure to comply with this order will subject this action to dismissal
without further notice. Upon receipt of the amended petition, the undersigned will
enter an order providing the government with an opportunity to respond, as
appropriate.
The Clerk is DIRECTED to serve a copy of this Order on all parties of
record and to provide the petitioner with two (2) copies of the court’s form for
filing a petition for habeas corpus under 28 U.S.C. § 2254.
DATED this 11th day of July, 2018.

John E. Ott
Chief United States Magistrate Judge

6

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 1 of 47 FI LEE
2019 May-07 PM 05:2:
U.S. DISTRICT COUR'
N.D. OF ALABAMj

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
MIDDLE DIVISION
DANNY L. SMITH,

)
)

Petitioner,

)
)

)

v.

Case No.: 4:17-cv-01223-RDP-JEO

)

STATE OF ALABAMA, et al.,

)
)

Respondents.

)

REPORT AND RECOMMENDATION
This is a petition for a writ of habeas corpus filed pursuant to 28 U.S.C. §
2254 by Danny L. Smith, an Alabama state prisoner, challenging his life sentences
imposed on August 7, 2008, after he pleaded guilty in Etowah County Circuit
Court to seven separate felony and misdemeanor charges.

(Doc. 1). Smith filed

his pro se petition for writ of habeas corpus on July 19, 2017. (Id.., at 29). Based

1 The court takes judicial notice of the state court records in each of the seven cases: CC-06-269,
Assault 1st, guilty plea August 7, 2008; CC-07-41, ASORCNA violation, guilty plea August 7,
2008; CC-07-784.01, Burglary 1st, guilty plea August 7, 2008; CC-07-784.02, Assault 2nd,
guilty plea August 7, 2008; CC-07-785, Criminal Mischief 2nd, guilty plea August 7, 2008; CC07-786, Burglary 3rd, guilty plea November 6, 2007; CC-07-787, Theft of Property 3rd, guilty
plea November 6, 2007. See Keith v. DeKalb County, Georgia, 749 F.3d 1034, 1041 n.18 (11th
Cir. 2014) (citing Fed. R. Evid. 201); Grider v. Cook, 522 F. App’x 544, 546 n.2 (11th Cir.
2013).
2 Smith signed his petition on July 19, 2017. (Doc. 1 at 29). Although not docketed until July
21, 2017, Smith is entitled to a presumption that his petition was tendered to prison officials for
filing on the date he signed it. See Houston v. Lack, 487 U.S. 266, 275 (1988).

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 2 of 47

on court orders, Smith filed an amended pro se petition on August 2, 2018. (Doc.
17). He is incarcerated in Limestone Correctional Facility, in Harvest, Alabama.
In accordance with the usual practices of this court and 28 U.S.C. § 636(b), the
matter was referred to the undersigned magistrate judge for a preliminary review
and recommendation.
PROCEDURAL HISTORY
On November 6, 2007, Smith pled guilty to third degree burglary and third
degree theft of property. (Doc. 7-6 at 25; doc. 7-7 at 2). On August 7, 2008, Smith
pled guilty to first degree burglary, second degree assault, first degree assault,
second degree criminal mischief, and violation of the Community Notification Act.
(Doc. 7-6 at 30; doc. 7-7 at 3; doc. 7-31 at 40).
Smith was sentenced on August 7, 2008, under the Habitual Offender Act to
life imprisonment in five of these cases, with each of the life terms to run
concurrently all of these convictions on August 7, 2008. (Doc. 7-6 at 26-30; doc.
7-7 at 2; doc. 7-10 at 31-33). In the two misdemeanor cases (CC-07-785 and CC07-787), Smith received 12 month sentences, also to run concurrently with five life
sentences. (Doc. 7-10 at 33). Smith did not file a direct appeal.

3 For the reasons set forth in the court’s Orders of May 8, 2018, and July 11, 2018 (docs. 12 and
16), the undersigned considers solely the claims set forth in the Amended Petition.
2

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 3 of 47

Smith filed his first motion for collateral review on July 20, 2009, in CC-07786 and CC-07-787.4 (Doc. 7-3 at 16). At some point in September 2009, Smith
amended his petition to include additional claims.5 (Doc. 7-7 at 16-17). On May
14, 2012, the trial judge dismissed the Rule 32 petition without prejudice, based on
Ala. R. Crim. P. 32.1, which prohibits challenging multiple judgments in one
petition. {Id., at 34). Smith appealed that ruling and on December 7, 2012, the
Alabama Court of Criminal Appeals (“ACCA”) affirmed the trial court’s dismissal.
{Id., 7-7 at 36; Doc. 7-13). The Alabama Supreme Court denied certiorari on
March 15, 2013. See Ex parte Danny L. Smith, No. 1120438, 162 So. 3d 952 (Ala.
2013) (table).
On April 5, 2013, Smith filed two new petitions for collateral review under
Rule 32, Ala. R. Crim. P. (Doc. 7-17 at 29, doc. 7-18 at 5, 9). The circuit court
again dismissed the petitions, this time with prejudice, on September 24, 2013,
citing to Rule 32.1, Ala. R. Crim. P., and Smith again appealed. (Doc. 7-17 at 2;
doc. 7-18 at 11, 13). On January 12, 2015, the ACCA affirmed the dismissal for
violation of Rule 32.1, Ala. R. Crim. P., but reversed and remanded to the circuit
court for dismissal of the petition without prejudice. (Doc. 7-21). On February 24,

4 Those cases were the Burglary 3rd and Theft of Property 3rd, to which Smith had pleaded
guilty on November 6, 2007.
5 The amendment is undated and the Etowah County Clerk’s Office stamp is illegible. {See doc.
7-7 at 16-17).
3

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 4 of 47

2015, the Circuit Court of Etowah County complied. (Doc. 7-23). Smith did not
appeal that dismissal.
On March 12, 2015, Smith filed a third Rule 32 petition. (Doc. 7-24 at 4).
The district attorney again moved to dismiss, asserting Smith again challenged
multiple judgments in a single petition.

(Doc. 7-25 at 31).

The trial court

dismissed the third Rule 32 petition on May 18, 2015, noting Smith had reserved
no issues for appeal and waived his right to petition for post-conviction relief.
(Doc. 7-25 at 32-33). The trial court advised Smith the only grounds on which he
could file post-conviction pleadings were those found in Rule 32.2(a)(3) and (5),
Ala. R. Crim. P.6 {Id.). Smith appealed that dismissal7 and on October 16, 2015,
the ACCA again affirmed the dismissal of his petitions for co-mingling multiple

6 Rule 32.2 states in relevant part:
(a) Preclusion of Grounds. A petitioner will not be given relief under this rule
based on any ground:
(3) Which could have been but was not raised at trial, unless the ground for relief
arises under Rule 32.1(b); or
(5) Which could have been but was not raised on appeal, unless the ground for
relief arises under Rule 32.1(b).
In turn, Rule 32.1(b) allows a post-conviction petition for relief if “[t]he court was without
jurisdiction to render judgment or impose sentence.” Rule 32.1(b), Ala. R. Crim. P.
7 Smith actually brought two separate, parallel petitions in his third round of seeking collateral
review. {See e.g., Doc. 7-25 at 20, 23, 57).
4

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 5 of 47

judgments in a single proceeding.8 (Doc. 7-25 at 56; Doc. 27-28). Smith did not
appeal to the Alabama Supreme Court and the ACCA issued a Certificate of
Judgment on November 4, 2015. (Doc. 7-29).
Smith brought a fourth round of Rule 32 proceedings on November 6, 2015.9
(Doc. 7-30 at 10). On November 7, 2016, the state filed a response addressing
each of the claims in cases CC-07-786 and CC-07-787 on their merits. (Doc. 7-33
at 26). In its December 5, 2016, Order denying relief, the Rule 32 court addressed
these claims and permanently enjoined Smith from filings any pleading with
grounds previously raised or which could have been raised, unless he first showed
good cause for his failure to raise such claims earlier. (Doc. 7-33 at 58-65). On
appeal (doc. 7-34 at 5), the ACCA held in pertinent part:
First, Smith alleged in his petition that he was entitled to equitable
tolling because the filing of his first Rule 32 petition was timely and
was dismissed without prejudice. Smith maintains that, because all
three of his previous petitions were dismissed without prejudice
because his petitions challenged multiple judgments, he is entitled to
equitable tolling.
The Alabama Supreme Court has held that
“when a Rule 32 petition is time-barred on its face, the
petition must establish entitlement to the remedy
afforded by the doctrine of equitable tolling. A petition
that does not assert equitable tolling, or that asserts it but
8 The court delineated these judgments as “his November 2007 guilty plea proceedings, his
August 2008 guilty plea proceedings, and a habeas corpus proceeding.” (Doc. 7-28 at 3).
9 Although stamped as received by the Etowah County Clerk’s Office on November 20, 2015,
Smith dated his petition on November 6, 2015.
5

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 6 of 47

fails to state any principle of law or any fact that would
entitle the petitioner to the equitable tolling of the
applicable limitations provision, may be summarily
dismissed without a hearing. Rule 32.7(d), Ala. R.
Crim. P.”
Ex parte Ward, 46 So. 3d 888, 897-98 (Ala. 2007). “[T]he threshold
necessary to trigger equitable tolling is very high, lest the exceptions
swallow the rule.” United States v. Marcello, 212 F.3d 1005, 1010
(7th Cir. 2000). “Equitable tolling is appropriate when a movant
untimely files because of extraordinary circumstances that are both
beyond his control and unavoidable even with diligence.” Sandvik v.
U.S., 177 F.3d 1269, 1271 (11th Cir. 1999) ... Irwin v. Department of
Veteran Affairs, 498 U.S. 89, 96 (1990) (“Federal courts have
typically extended equitable relief only sparingly. We have allowed
equitable tolling in situations where the claimant has actively pursued
his judicial remedies by filing a defective pleading during the
statutory period, or where the complainant has been induced or
tricked by his adversary’s misconduct into allowing the filing
deadline to pass.”).
In the present case, although Smith alleges that he was entitled to
equitable tolling in his petition and again on appeal, his assertion is
unavailing. Each of his previous petitions were dismissed on the
ground that his petition challenged multiple judgments. Smith
maintainsjhat, because his first petition was filed within the statutory
period and he was actively seeking judicial remedies from that time,
he should bejmtitled to equitable tolling. Based on his contention,
Smith could have had a meritorious argument for equitable tolling
when he filed his second petition after the court had explained that he
could not file a petition challenging multiple judgments. However,
Smith continued to file petitions with the same defect even after
being told numerous times by this Court and the circuit court the
reason that the petitions were defective. Thus, the circumstances in
the instant case that Smith claims entitle him to equitable tolling were
fully within Smith’s control and were avoidable with diligence from
Smith. Therefore, Smith has not pleaded sufficient facts in his Rule
32 petition to satisfy his high “burden of demonstrating in his petition
that there are such extraordinary circumstances justifying the
6

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 7 of 47

application of the doctrine of equitable tolling.” Ex parte Ward,
supra.
(Doc. 7-37 at 3-4). After determining that Smith was not entitled to equitable
tolling, in affirming the trial court’s dismissal of the petition, the ACCA addressed
the specific procedural bars which applied. (Id., at 5-11). Smith’s petition for writ
of certiorari with the Alabama Supreme Court was denied without opinion and a
certificate of judgment was entered July 7, 2017. (Doc. 7-40; doc. 7-42).
On July 19, 2017, Smith filed the instant habeas petition, attempting to
address solely his claims arising from cases CC-07-786 and CC-07-787. (Doc. 1).
At the time, his claims based on the August 7, 2008, pleas were still pending in the
Alabama appellate courts. When the Alabama Supreme Court denied certiorari in
those cases, Smith brought a second habeas action in this court. See l:18-cv00688-MHH-JEO. Because all of the petitioner’s claims arose out of one
sentencing, this court consolidated the actions and provided the petitioner with the
opportunity to file an amended habeas petition.10 The amended petition is thus the
operative one for this court’s review. (Doc. 17).

10 To the extent Smith attempts to argue that state law, specifically Rule 32.1 requiring separate
state court petitions, is contrary to this court’s findings in applying federal law, this is irrelevant.
(See doc. 17 at 6-7, 9-12; doc. 24 at 1-29; doc. 27). No requirement exists that federal
procedural rules align with state procedural rules, nor does a state procedural requirement which
differs from a federal one in any way implicate the United States Constitution or other federal
rights. To the extent the petitioner attempts to raise such a claim as Ground Two in his amended
petition (doc. 17 at 15-17), relief on that basis is due to be denied.
7

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 8 of 47

Pursuant to the court’s order to show cause (doc. 4), the respondents filed an
answer on August 18, 2017, supported by exhibits, asserting that this petition is
untimely (doc. 7); and a supplemental answer on August 31, 2018, again asserting
the petition is untimely (doc. 20). By order dated September 4, 2018, the parties
were notified that the amended petition would be considered for summary
disposition, and Smith was notified of the provisions and consequences of this
procedure under Rule 8 of the Rules Governing Section 2254 Cases. (Doc. 21).
After requesting and receiving an extension of time in which to respond, Smith
filed a response on October 1, 2018, and a motion for summary judgment, for
evidentiary hearing, and for appointment of counsel on October 4, 2018. (Docs.
22-24). The court ordered that the motion for summary judgment would be treated
as a further response, and denied the remainder of that motion. (Doc. 26, text order
of October 23, 2018). Smith later filed a Motion for Leave to File Petitioner’s
Supplemental Points of Authorities (doc. 27), which the court construed as yet a
further response.
PETITIONER’S CLAIMS
Smith appears to present the following grounds in his amended petition:
I. He is entitled to statutory and equitable tolling11 (doc. 17 at 9, 76);

11 The plaintiff presents various versions of this claim as grounds one and ten in his amended
petition.
8

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 9 of 47

II. Rule 32.1(f) is unconstitutional as applied to him and thus he is entitled to
statutory or equitable tolling (doc. 17 at 15-17);
III. He was denied counsel during collateral review and during sentencing
(doc. 17 at 20);
IV. His guilty plea was not voluntary because of ineffective counsel12 (doc
17 at 24, 52, 72);
V. His convictions for assault are unconstitutional and counsel was
ineffective for failing to raise this (doc. 17 at 61);
VI. His life sentences are manifestly unjust because the crime of a convicted
sex offender changing residences without notice was repealed on July 1
2011 (doc. 17 at 66);
VII. His guilty plea was involuntary because he did not know waiving his
right to state appeal affected his right to federal review and the state court
violated Boykin v. Alabama (doc. 17 at 48, 50, 69).
ANALYSIS
A. Claims which are Procedurally Defaulted
I. The Petitioner is Entitled to Statutory and Equitable Tolling
II. Rule 32.1(f) is Unconstitutional as Applied and thus Petitioner is Entitled
to Statutory or Equitable tolling
IV. The Guilty Plea was not Voluntary Because of Ineffective Counsel
V.

The Convictions for Assault are Unconstitutional and Counsel was
Ineffective for Failing to Raise This
Smith-asserts his two most recent state court collateral actions should have
beeu. found to be^ 'timely filed. The respondents counter that Smith received
12

The plaintiff presents various versions of this claim as grounds four, five, and nine in his
amended petition.
9

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 10 of 47

instructions from the Alabama Court of Criminal Appeals on how to properly file
his petitions, yet he chose to ignore that advice. (Doc. 7 at f 17; Doc. 20 at f 18).
In turn, Smith’s failure to timely file proper petitions caused their dismissal, and
thus those claims are unexhausted and therefore defaulted here. To avoid this
result, Smith argues his claims should be reached on their merits through
application of equitable tolling.13
In considering the Rule 32 petitions, the state courts found Smith’s equitable
tolling argument foreclosed by Rule 32.2(c), Ala. R. Crim. P. Quoting from its
earlier decision in Smith v. State, CR-16-0417, _So. 3d_ (Ala. Crim. App. 2016),
the ACCA held:
Smith maintains that, because his first petition was filed within the
statutory period and he was actively seeking judicial remedies from
that time, he should be entitled to equitable tolling. Based on his
contention, Smith could have had a meritorious argument for
equitable tolling when he filed his second petition after the court had
explained that he could not file a petition challenging multiple
judgments. However, Smith continued to file petitions with the same
defect even after being told numerous times by this Court and the
circuit court the reason that the petitions were defective. Thus, the
circumstances in the instant case that Smith claims entitle him to
equitable tolling were fully within Smith’s control and were
avoidable with diligence from Smith. Therefore, Smith has not
pleaded sufficient facts in his Rule 32 petition to satisfy his high
13

Both Smith and the respondents set forth extensive arguments on statutory tolling. The
undersigned notes these arguments only implicate the timeliness of the petition here, the
application of which allows the court to address the claim on their merits. Rather than engage in
an extensive analysis of the timeliness of Smith’s § 2254 petition given the convoluted state
court history of his claims, the undersigned address the claims based on the posture in which
they were presented in the state courts. In doing do, the undersigned makes no findings on the
timeliness of the petition.
10

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 11 of 47

“burden of demonstrating in his petition that there are such
extraordinary circumstances justifying the application of the doctrine
of equitable tolling.” Ex parte Ward, supra.
(Doc. 7-37 at 4).
Before bringing a habeas action in federal court, a petitioner must exhaust all
state court remedies that are available for challenging his conviction, either on
direct appeal or in a state court post-conviction motion. 28 U.S.C. § 2254(b)(1),
(c). Exhaustion requires that prisoners give the state courts “one full opportunity”
to resolve all constitutional issues by “invoking one complete round of the State’s
established appellate review process.” O’Sullivan v. Boerckel, 526 U.S. 838, 845
(1999). To properly exhaust a federal claim, a petitioner must “fairly present” the
claim in each appropriate state court, thereby affording the state courts a
meaningful opportunity to “pass upon and correct alleged violations of its
prisoners’ federal rights.” Baldwin v. Reese, 541 U.S. 27, 29 (2004) (internal
quotations omitted).
“[Fjederal court[s] will not review the merits of claims including
constitutional claims that a state court declined to hear because the prisoner failed
to abide by a state procedural rule.” Martinez v. Ryan, 566 U.S. 1, 9 (2012) (citing
Coleman v. Thompson, 501 U.S. 722, 747-748 (1991) (other citations omitted).
Where the state court correctly applies a procedural default principle of state law to
arrive at the conclusion that the petitioner’s federal claims are barred, the federal
11

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 12 of 47

court must respect the state court’s decision. Atkins v. Singletary, 965 F.2d 952,
956 (11th Cir. 1992), cert, denied, 515 U.S. 1165 (1995); Meagher v. Dugger, 861
F.2d 1242, 1245 (11th Cir. 1988). When a petitioner fails to properly exhaust a
federal claim in state court, and the unexhausted claim is now procedurally barred
under state law, the claim is procedurally defaulted and federal review is barred.
Bailey v. Nagle, 172 F.3d 1299, 1302-03 (11th Cir. 1999). “However, a state
court’s rejection of a federal constitutional claim on procedural grounds may only
preclude federal review if the state procedural ruling rests upon ‘adequate and
independent’ state grounds.” Ward v. Hall, 592 F.3d 1144, 1156 (11th Cir. 2010)
See also Cone v. Bell, 556 U.S. 449, 465 (2009) (quoting Coleman v. Thomas, 501
U.S. 722, 729-30 (1991) (“federal courts will not review questions of federal law
presented in a habeas petition when the state court’s decision rests upon a state law
ground that is independent of the federal question and adequate to support the
judgment.”).
An “adequate and independent” state court procedural ruling consists of the
following three elements: (1) the last state court rendering a judgment in the case
must clearly and expressly state that it is relying on state procedural rules to
resolve the federal claim without reaching the merits of that claim; (2) the state
court’s decision must rest entirely on state law grounds and not be intertwined with
an interpretation of federal law; and (3) the state procedural rule must be adequate,
12

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 13 of 47

i.e., firmly established and regularly followed and not applied in an arbitrary or
unprecedented fashion.14 Boyd v. Comm’r, Alabama Dep’t of Corr., 697 F.3d
1320, 1336 (11th Cir. 2012) (citing Card v. Dugger, 911 F.2d 1494 (11th Cir.
1990)); Ward, 592 F.3d at 1156-57 (citing Judd v. Haley, 250 F.3d 1308, 1313
(11th Cir. 2001)).

Rule 32.2(c) has been held to be “firmly established and

regularly followed,” such that it suffices as an independent and adequate state
ground to preclude federal habeas review. Hurth v. Mitchem, 400 F.3d 857, 86163 (11th Cir. 2005).
“When a state court denies a claim as defaulted based on an adequate and
independent state procedural rule, a petitioner may not bring the claim in federal
habeas,” Butts v. GDCP Warden, 850 F.3d 1201, 1203 (11th Cir. 2017) (quoting
Lucas v. Warden, Ga. Diagnostic & Classification Prison, 111 F.3d 785, 801 (11th
Cir. 2014)), “unless the habeas petitioner can show ‘cause’ for the default and
‘prejudice’ attributable thereto ... or demonstrate that failure to consider the federal
claim will result in a ‘fundamental miscarriage of justice.’” Coleman v. Thompson,
501 U.S. 722, 749-50 (1991) (citations and internal quotation marks omitted). To
show cause, a petitioner must prove “some objective factor external to the defense
impeded counsel’s efforts to comply with the State’s procedural rule.” Murray v.
In a situation “where a state court has ruled in the alternative, addressing both the independent
state procedural ground and the merits of the federal claim, the federal court should apply the
state procedural bar and decline to reach the merits of the claim.” Alderman v. Zant 22 F 3d
1541, 1549 (11th Cir. 1994).
13

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 14 of 47

Carrier, All U.S. 478, 488 (1986); Bishop v. Warden GDCP, 726 F.3d 1243, 1258

(11th Cir. 2013).

“Prejudice” requires a showing that at least a reasonable

probability exists the results of the proceeding would have been different. Spencer
v. Sec’y, Dept, of Corr., 609 F.3d 1170, 1180 (11th Cir. 2010). A fundamental
miscarriage of justice exists “in an extraordinary case where a constitutional
violation has probably resulted in the conviction of one who is actually innocent.”
Ward, 592 F.3d at 1157 (quoting Carrier, All U.S. at 496).
Of the multiple grounds raised in the amended petition, actual innocence is
not among them. Rather, Smith argues the state’s application of Rule 32.1(f) was
unlawful, unjust, and in violation of his due process and equal protection rights,
and therefore Rule 32.2(c) should not apply to him. (Doc. 17 at 9-12, 16-17). As
previously noted, Rule 32.2(c), Ala. R. Crim. P.,15 is an independent and adequate
state ground, sufficient to preclude federal habeas review. Hurth, 400 F.3d at 86163.
Smith’s equitable tolling arguments are without merit. Equitable tolling is
available only where a petitioner “shows (1) that he has been pursuing his rights
Alabama Rules of Criminal Procedure Rule 32.2(c) sets forth a one year limitations period for
claims based on the grounds set forth in Rule§_32r±(a)-=a^cL(f). Rule 32.1(a) provides a remedy
for claims that the Constitution of the
ifed States or theStafexof Alabama require a new trial.
Rule 32.1(f) excuses untimely appeals where the petitioner was\ot at fault for the failure and
requires claims arising from separate guilty pleas be set forth in separate petitions. Also relevant
here, Rule 32.1(b) allows relief/bn the ground that the trial co
was without jurisdiction to
render judgment or impose sentence. Rule 32.2(a)(5) excusesjhe failure to raise claims on Rule
32.1(b) grounds from the requirebaqnt that all group
ir relief must be raised at trial or on
appeal.
14

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 15 of 47

diligently, and (2) that some extraordinary circumstance stood in his way and
prevented timely filing.” Holland v. Florida, 560 U.S. 631, 649 (2010) (citations
and internal quotation marks omitted). For equitable tolling to apply, the Eleventh
Circuit requires “rare and exceptional circumstances, such as when the State’s
conduct prevents the petitioner from timely filing.” Lawrence v. Florida, 421 F.3d
1221, 1226 (11th Cir. 2005).

A petitioner seeking equitable tolling bears the

burden of showing that it is warranted. Hunter v. Ferrell, 587 F.3d 1304, 1308
(11th Cir. 2009).

Moreover, he must show a causal connection between the

alleged extraordinary circumstances and the late filing of his petition. San Martin
v. McNeil, 633 F.3d 1257, 1267 (11th Cir. 2011).
Smith first asserts that because he fired his counsel two days after his
November 2007 guilty pleas, and did not have new counsel appointed until his
sentencing in August 2008, he is entitled to equitable tolling.16 (Doc. 9 at 2-3).
According to Smith, he tried to withdraw his guilty plea, which the trial court
denied, and this somehow demonstrates his claims should be found timely, as those
should have been considered “tolling motions.” {Id., at 3-6). Smith’s reliance on
Artuz v. Bennett, 531 U.S. 4 (2000), is misplaced. That case held “the question
whether an application has been ‘properly filed’ is quite separate from the question
16

As addressed infra, this assertion of Smith’s is belied by the state court records which reflect
Smith had counsel prior to and during the August 2008 trial, which terminated when Smith
entered a plea of guilty to those and other charges. At sentencing, Smith had both trial counsel,
Mr. Stracener, and also Mr. Stewart, who represented Smith on the charges to which he had
previously pleaded guilty.
15

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 16 of 47

whether the claims contained in the application are meritorious and free of
procedural bar.” Id., at 9 (emphasis in original). While Smith’s first state petition
for collateral review was “timely filed” for purposes of tolling the statute of
limitations for 28 U.S.C. § 2244(d)(2), this is a wholly separate question from
whether the state petition complied with state procedural rules such that the
petition could be addressed on its merits. See id.
Motions filed prior to the time a conviction becomes final cannot toll the
time for filing post-conviction relief. See e.g., Rule 32.2(c), Ala. R. Crim. P.
(calculating the time to file a petition for relief from conviction not appealed to the
Alabama Court of Criminal Appeals as “within one (1) year from the time for
filing an appeal lapses...”) and Rule 4(b), Ala. R. App. P. (stating in a criminal
case “a notice of appeal by the defendant shall be filed within 42 days (6 weeks)
after pronouncement of the sentence.”); McCloud v. Hooks, 560 F.3d 1223, 1228
(11th Cir. 2009) (in Alabama, the time to appeal expires 42 days after entry of final
judgment). Thus, Smith’s assertion that his motions to withdraw his guilty plea
had some “tolling” effect on the state court limitations period is unsupported by
any legal precedent.

17

In the state court opinions addressing these claims, the ACCA held:

17 In any event, Smith could have—but failed to—raise any claims concerning the November
2007 guilty pleas at his August 7, 2008, sentencing.
16

Case: 4:17-cv-01223-RDP-JEO

Document#: 34-1

Date Filed: 05/07/2019

Page 17 of 47

.... In his petition, Smith claimed that his guilty plea was involuntary
and his counsel was ineffective because counsel “threatened him”
that he would get life without parole in future pending cases. (C. 29.)
Smith also alleged that counsel was unprepared for trial because
counsel failed to subpoena or call his defense witnesses to testify on
his behalf and counsel failed to collect evidence to support his
defense. Smith claims that counsel forced him into pleading guilty
when counsel suggested that Smith enter a blind plea agreement and
told Smith that, by Smith accepting responsibility, the judge “might
be” lenient on Smith. (C. 32.)

First, we note that, although Smith contends that the effect of
counsel’s errors rendered his counsel ineffective and his guilty plea
involuntary, our reading of Smith’s petition does not indicate that
Smith pleaded specific facts indicating that, but for counsel’s errors,
he would not have pleaded guilty and would have insisted on going to
trial. Therefore, we do not believe Smith has properly pleaded facts
establishing that he was prejudiced by counsel’s errors. See Culver,
549 So. 2d at 572.
Moreover, even if Smith’s petition could be construed in a manner
indicating that Smith had properly pleaded his ineffective-assistanceof-counsel claim, Smith’s claims are still nonjurisdictional claims
that are subject to the preclusions set forth in Rule 32.2. Ineffectiveassistance of counsel claims and claims regarding the voluntariness
of guilty pleas are not jurisdictional issues. Catchings v. State, 684
So. 2d 168, 169 (Ala. Crim. App. 1995) (A challenge to the
voluntariness of a guilty plea is not jurisdictional and, although it can
be raised for the first time in a Rule 32 petition, it is subject to the
limitations period in Rule 32.2(c), Ala. R. Crim. P.); Baker v. State,
661 So. 2d 50, 51 (Ala. 1995) (Although claims of ineffective
assistance of counsel may be presented for the first time in a Rule 32
petition, they are nevertheless subject to the limitations period in
Rule 32.2(c), Ala. R. Crim. P.). See also Cantu v. State, 660 So. 2d
1026 (Ala. 1994) (holding that the voluntariness of a guilty plea can
be raised for the first time in a timely filed Rule 32 petition). As the
State correctly noted in its motion to dismiss, Smith’s petition was
not timely filed. Smith was sentenced on August 7, 2008. The instant
petition was not filed until November 6, 2015, which was well
17

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 18 of 47

outside the one-year limitations period in Rule 32.2(c), Ala. R. Crim.
P. Therefore, Smith’s claims challenging the voluntariness of his
guilty plea and alleging ineffective-assistance of counsel are
precluded under Rule 32.2 (c).
(Doc. 7-37 at 5-7 {Smith v. State, No. CR-16-0417 (Ala. Crim. App. Apr. 21,
2017))). In the companion case, the Court found:
Smith, in his petition and in his brief on appeal, essentially argues
that because his counsel did not prepare for trial, he was forced to
plead guilty and confess his guilt in the guilty plea proceeding.
However, all of Smith’s claims related to ineffective assistance of
counsel are, as found by the circuit court, precluded by Rule 32.2(c).

Although couched in jurisdictional terms, Smith’s ineffective
assistance claims are not truly jurisdictional and therefore subject to
the procedural bars of Rule 32, Ala. R. Crim. P. See, e.g. Cogman v.
State, 852 So.2d 191, 192-193 (Ala. Crim. App. 2002) (a claim
alleging ineffective assistance of counsel is not jurisdictional).
Smith v. State, No. CR-16-0782, at 17 (Ala. Crim. App. Dec. 8, 2017).
The state courts’ appropriate determination that the petitioner’s claims were
barred by Rule 32.2(c), forecloses consideration of these claims here.
B. Merits
Pursuant to 28 U.S.C. § 2254(d), an application for a writ of habeas corpus
shall not be granted with respect to any claim adjudicated on its merits in state .
court unless the adjudication resulted in (1) a decision that was contrary to, or
involved an unreasonable application of a clearly established federal law, as
determined by the Supreme Court of United States, or (2^a decision that was based
18

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 19 of 47

oh aif unreasonable determination of the facts in light of the evidence presented in
tb^State court proceeding. See e.g., Premo v. Moore, 562 U.S. 115, 120-21
(2011). A ^tate court’s determination is “contrary to” a federal law if it “fails to
apply the correct controlling standard or if it applies the controlling authority to a
case involving facts materially indistinguishable” from those in a controlling case,
but reaches a different result. Williams v. Taylor, 529 U.S. 362, 405 (2000). A
state court’s decision is an “unreasonable application” of federal law if it correctly
identifies the governing rule but applies it to a new set of facts in an objectively
unreasonable manner, or if it fails to extend a clearly established legal principle to
a new context in an objectively unreasonable manner. Id., at:407
1. Claims Concerning Ineffective Assistance of Counsel
IV. Ineffective Assistance of Counsel at Guilty Plea

jo

V. The Petitioner’s Convictions for Assault are Unconstitutional and
Counsel was Ineffective for Failing to Raise This
VII. The Guilty Plea was Involuntary because the Petitioner Did Not Know
Waiving His Right to State Appeal Affected His Right to Federal Review and
because the State Court Violated Boykin v. Alabama
When a petitioner raises claims of ineffective assistance of counsel, the twoprong standard set forth in Strickland v. Washington, 466 U.S. 668 (1984), applies.
To obtain relief, a petitioner must establish that: (1) “counsel’s representation fell

18 To the extent grounds IV and V are not barred because of the petitioner’s procedural default,
the undersigned has considered these claims on their merits.
19

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 20 of 47

below an objective standard of reasonableness,” and (2) “there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466 U.S. at 688, 694. “A
reasonable probability is a probability sufficient to undermine confidence in the
outcome.” Id., at 694. Smith makes no such allegations. At best, he asserts he
would have received something less than life imprisonment but for his counsel’s
errors. Given that Smith pleaded guilty, the second prong of Strickland demands
more than his conclusory allegations his counsel should have done something
more. See e.g., Chavez v. Sec’y, Fla. Dep’t of Corr., 647 F.3d 1057, 1061 (11th
Cir. 2011) (requiring specific, non-conclusory allegations in a habeas petition).
Smith fails to identify any action or inaction by any of his counsel which arguably
fell below the standard of reasonableness. And even assuming that any of Smith’s
counsel were ineffective, he has not demonstrated how, as a result of those
unprofessional errors, the result of his proceedings would have been different. See
e.g. Harris v. Comm’r, Ala. Dep’t of Corr., 874 F.3d 682, 691-692 (11th Cir. 2017)
(“Put differently, Harris has not explained how specific acts or omissions of her
first seven lawyers caused the failed strategy presented at trial by her eighth and
ninth lawyers. Her general allegations ... do not supply the causal link her claim
requires.”).

20

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 21 of 47

As set forth in more detail belov^, Smith’s general assertion that his various
counsel were ineffective does not state a viable ground fdr relief.
a. Claims IV and VII - The Guilty Plea
The standard for determining the validity of a guilty plea is “whether the
plea represents a voluntary intelligent choice among the alternative courses open to
the defendant.” North Carolina v. Alford, 400 U.S. 25, 31 (1970). The assistance
of counsel received by a petitioner is relevant to the question of whether a guilty
plea was knowing and intelligent insofar as it affects the petitioner’s knowledge
and understanding. See McMann v. Richardson, 397 U.S. 759, 770-71 (197.0)
(stating validity of guilty plea depends not on whether counsel’s advice was “right
or wrong” but whether that advice “was within the range of competence demanded
of attorneys in criminal cases”); Lefkowitz v. Newsome, 420 U.S. 283, 288 (1975)
(“[T]he general rule is that a guilty plea, intelligently and voluntarily made, bars
the later assertion of constitutional challenges to the pretrial proceedings.”).
[T]he representations of the defendant, his lawyer, and the prosecutor
at such a hearing, as well as any findings made by the judge accepting
the plea, constitute a formidable barrier in any subsequent collateral
proceedings. Solemn declarations in open court carry a strong
presumption of verity. The subsequent presentation of conclusory
allegations unsupported by specifics is subject to summary dismissal,
as are contentions that in the face of the record are wholly incredible.
Blackledge v. Allison, 431 U.S. 63, 73-74 (1977) (citations omitted).

21

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 22 of 47

“A reviewing federal court may set aside a state court guilty plea only for
failure to satisfy due process.” Massey v. Warden, 733 F. App’x 980, 988 (11th
Cir. 2018) (quoting Stano v. Dugger, 921 F.2d 1125, 1141 (11th Cir. 1991). Due
process requires that a guilty plea be entered knowingly and voluntarily. Boykin v.
Alabama, 395 U.S. 238, 243 n.5 (1969)v flbwever^i guilty plea accepted “without
an affirmative showing that it was intelligent and voluntary” is in error. Id., at 242.
A plea is not voluntary in the constitutional ftensd “unlhss the defendant received
real notice of the true nature of the charge against him/’ Henderson v. Morgan,
426 U.S. 637, 645 (1976>^quotation^arfes-4amitted)f Due process is satisfied so
long as “the record /accurately reflects \that the nature of the charge and the
elements of the crime were explained to the defendant by his own, competent
counsel.”

Bradshaw v. Stumpf, 545 U.S. 175, 183 (2005).

Even where the

foregoing is lacking, “due process is still satisfied if the record as a whole
establishes that the defendant fully understood the nature of the charges.” Massey,
733 F. App’x at 989 (citing Henderson, 426 U.S. at 645 n.13 (noting that a
defendant’s guilty plea is voluntary if the record contains “proof that he in fact
understood the charge”); Stinson v. Wainwright, 710 F.2d 743, 747-48 (11th Cir.
1983) (applying Henderson to conclude that the state court records as a whole,
including the plea and sentencing transcripts, supported the conclusion that the
plea was voluntary)). Finally, “even without such an express representation, it may
22

Case: 4:17-cv-01223-RDP-JEO

Document#: 34-1

Date Filed: 05/07/2019

Page 23 of 47

be appropriate to presume that in most cases defense counsel routinely explain the
nature of the offense in sufficient detail to give the accused notice of what he is
being asked to admit.” Massey 733 F. App’x at 989 (quoting United States v.
Monroe, 353 F.3d 1346, 1350 and n. 3 (11th Cir. 2003).
Here, the record from the November 2007 guilty pleas in cases CC-07-786
and CC-07-787 reflects as follows:
THE COURT: All right. Mr. Smith, you’re represented by Eddy
Cunningham. I need to ask you if you believe you’ve had enough
time to speak with Mr. Cunningham concerning all the issues
regarding your matter?
THE DEFENDANT: Yes, sir, I have. But as he stated, Fd like - I’m
making this as a best-interest plea based on his advice.
THE COURT: All right. You understand that you are accused in an
indictment of burglary in the third degree and also a charge in a
misdemeanor case of theft of property in the third degree?
THE DEFENDANT: Yes, sir, I understand that.
THE COURT: Have you been given a copy of the indictment in the
charge or has it been read to you and do you understand the contents?
THE DEFENDANT: No, sir, I haven’t been given a copy. That’s
honesty.
THE COURT: Have you had them explained to you?
MR. CUNNINGHAM: Danny, just a second. I’m gonna go on
record here. The indictments are laying right there on the record.
You and I have been looking at them all day, okay ?
Now, I don’t want you to mislead the Court that I have not
represented you properly.
23

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 24 of 47

THE DEFENDANT: No, I’m not.
MR. CUNNINGHAM: You know what you’re charged with, don’t
you?
THE DEFENDANT: Yes, sir, I understand.
MR. CUNNINGHAM: It’s burglary and it’s theft.
THE DEFENDANT: I do know that.
MR. CUNNINGHAM:
Patterson, correct?

And it’s from the home of Ms. Geneva

THE DEFENDANT: Yes, sir.
MR. CUNNINGHAM: Okay.
THE DEFENDANT: You - he asked me if I had read the indictment
and I told him correctly.

MR. CUNNINGHAM: Do you want it read to you?
THE DEFENDANT: No, sir, I don’t want it read to me but I just
wanted to answer truthfully.
THE COURT: Well, I think I asked it this way, but let me be sure if I
asked if you had either read the indictment and charge or if you had
had it explained to you?
THE DEFENDANT: Yes, sir, I understand the charges against me.
THE COURT: All right. You understand what makes up the crimes
of burglary third degree and theft of property third degree or do you
require any explanation of that?
THE DEFENDANT: I’m good with it, Your Honor. I understand it.
24

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 25 of 47

THE COURT: All right. Now, I’m going to show you a form called
the Explanation of Rights and Plea of Guilty form. I’m going to ask
you if you recognize this form?
THE DEFENDANT: Yes, sir, I do.
THE COURT: Is this your signature that appears on the back?
THE DEFENDANT: Yes, sir, it is.
THE COURT:
document?

Did anyone force you or coerce you to sign this

THE DEFENDANT: No, sir, they did not.
THE COURT: All right. Did you sign it of our own free will and
accord?
THE DEFENDANT: Yes, sir, I did.
THE COURT: All right. Do you understand the contents of this
document or do you need anyone to explain any part of it to you
further?
THE DEFENDANT: .... Yes, sir. I want to clarify this where it’s
checked. Does that mean the Court has a right to sentence me to a life
sentence or to ninety-nine years with three prior felonies?
THE COURT: Yes. Well, my understanding that the State is going to
proceed under the Habitual Offender Act and that that — if I sentence
under the Habitual Offender Act, it would result in a sentence of
between fifteen and ninety-nine years in the state penitentiary?
THE DEFENDANT: Yes, sir. I didn’t know they had to file anything
to proceed —
I’m apologetic to the Court, Your Honor. I’m so sorry about this. I
just want to make sure I understand ....
25

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 26 of 47

THE COURT: All right. Well, are you ready to proceed?
THE DEFENDANT: Sol could receive up to a life sentence is the THE COURT: Well, the range would be - under the Habitual
Offender Act, the range would be fifteen to ninety-nine years or life in
the state penitentiary.
There is also an option for the Court to sentence under the
Sentencing Standards. And I would have to tell you I have made no
decision in that regard one way or the other.
THE DEFENDANT: Yes, sir.
It sheds a little bit of different light, Your Honor, from the way
I had understood it in the beginning. Due to the fact that I hadn’t
really - I don’t think I fully understood the ninety-nine - fifteen to
ninety-nine or life, which I do now
And at the time I was doing my reasoning in my best-interest
plea, I didn’t take fully that into account. So if I might have just a
second to think about it.
THE COURT: Do you need to confer with your attorney? We can
take a five-minute break and you can speak with your attorney.
THE DEFENDANT: Your Honor, if I could, please. I’d be more
than appreciative of that.
THE COURT: Go right ahead.
THE DEFENDANT: Thank you, sir.
(Short break taken.)
THE COURT: We’re back on the record. And I believe I was asking
you, Mr. Smith, if you had any questions about the Explanation of
Rights and Plea of Guilty form or you understood its contents.
26

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 27 of 47

THE DEFENDANT: Yes, sir, that is correct.
THE COURT: That you do understand its contents?
THE DEFENDANT: Yes, sir, that’s correct.
THE COURT: Do you require any further explanation of its
provision and the Explanation of Rights and Plea of Guilty?
THE DEFENDANT: No, sir.
THE COURT: All right. Do you understand that if you tell me
you’re guilty and the Court accepts your plea, that at a sentencing
hearing that right now is scheduled for January 14th, 2008, that I will
impose a sentence upon you, and based on the fact that the State has
indicated intent to proceed under the Habitual Offender Act and
apparently is going to - intending on showing three — at least three
prior felonies; that that could be a severe sentence?
THE DEFENDANT: (Witness nods head affirmatively.)
THE COURT: Based upon what we discussed earlier about the
habitual offender penalties?
THE DEFENDANT: Yes, sir, I understand that.

TEE COURT: Okay. Do you understand that as to each of the
crimes that you’re charged with, you have the right to say that you’re
not guilty?
THE DEFENDANT: Yes, sir.

THE COURT: You understand, of course, if you tell me you’re not
guilty, you have the following Constitutional rights: The right to a
speedy and public trial?

THE DEFENDANT: Yes.
27

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 28 of 47

THE COURT: The right to be tried by a jury?
THE DEFENDANT: Yes, sir.
THE COURT:
against you?

The right to see, hear and question all witnesses

THE DEFENDANT: Yes, sir.
THE COURT: The right at trial to present evidence in your favor and
either testify for yourself or remain silent?
THE DEFENDANT: Yes, sir.
THE COURT: The right to have a trial judge order into court all
evidence and witnesses in your favor?
THE DEFENDANT: Yes, sir.
THE COURT: The right to have a qualified lawyer defend you
before, during and after the trial, such as Mr. Cunningham here?
THE DEFENDANT: Yes, sir.
THE COURT: You understand that if you tell me you’re guilty,
however, you would give up all of these Constitutional rights that I
just mentioned to you and those containedln the Explanation of
Rights and Plea of Guilty that I went over and you said that you
understood and executed?
THE DEFENDANT: Yes, sir.

THE COURT: Do you understand that if you were to tell me that
you’re guilty, I could give you the same punishment as if you told me
you were not guilty, we had a trial concerning your matters and you
happened to be found guilty in that trial and I gave you a sentence at
that time?
28

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 29 of 47

THE DEFENDANT: I wasn’t aware of it, but I am now, yes, sir.
THE COURT: Okay. Does that cause you any — do you understand
that? Do you want to proceed with the plea with that understanding?
THE DEFENDANT: Just one second. Let me concentrate on that
thought just a minute.
Yes, sir, I do.
THE COURT: You understand you may not receive probation?
THE DEFENDANT: Yes, sir.
THE COURT: You understand that if you tell me you’re guilty, I will
not set sentencing until after I’ve read your past criminal record, if
any, and any report or recommendation of the probation officer and
also reviewed the Sentencing Standards?
THE DEFENDANT: Yes, sir.
THE COURT: Has any one threatened you, your family or anyone
else to get you to say that you’re guilty?
THE DEFENDANT: No, sir.
THE COURT: Has any one promised anything to you or your family
to get you to say that you’re guilty?
THE DEFENDANT: No, sir.
THE COURT: Has anyone told you, promised you or suggested to
you you would receive a lighter sentence, probation or favor to say
that you’re guilty?
THE DEFENDANT: No, sir. We had some offers and plea
agreements and negotiations, but nothing other than that.
THE COURT: All right. Anybody made any specific promises to
you?
29

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 30 of 47

THE DEFENDANT: No, sir.
THE COURT: All right. Now, are you reserving any issues for appeal
and/or Rule 32?
MR. CUNNINGHAM: No, sir, we have no issues on appeal.
THE DEFENDANT: There are none on appeal, no, sir.
THE COURT: Do you understand, then, by pleading guilty that you
waive your right to an appeal?
THE DEFENDANT: Yes, sir.

THE COURT: All right. So if you’re waiving your rights of appeal,
I’m just asking if you understand — by that, I’m asking if you
understand that entails withdrawing or waiving your right to withdraw
your plea of guilt?
THE DEFENDANT: If I could get you to read that question once
more. I’m sorry.
THE COURT: All right. Do you waive — do you understand if you
waive your right to an appeal that you reserve no issues for appellate
review?
THE DEFENDANT: Yes, sir, I understand that.
THE COURT: That you waive your right to withdraw your plea of
guilt?
THE DEFENDANT : Yes, sir, I understand that.

THE COURT: And that you specifically reserve no issues for
appellate review, you understand?
THE DEFENDANT: Yes, sir.

30

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 31 of 47

(Doc. 7-7 at 58-74). The prosecutor then stated in open court and on the record
what the state expected to prove should the case go to trial. {Id., at 74-76).
Smith’s assertion that counsel was ineffective for not advising him of his
direct appeal rights (doc. 17 at 20, 25) is wholly refuted by the record.19 Similarly,
Smith’s assertion that the state court violated Boykin v. Alabama, supra, by not
advising him of the possible sentence ranges {id., at 48, 50) is contradicted by the
record. The plea colloquy transcript demonstrates that Smith understood the
charges against him and the possible punishments. His claims otherwise, in light
of the record, “are wholly incredible.” Blackledge, 431 U.S. at 74.
The trial court record further reflects that, rather than being appointed
“midstream” as claimed by Smith (doc. 17 at 20), counsel at sentencing had been
representing Smith for multiple months, had filed motions on his behalf, and had
been actively representing the petitioner in criminal trial in cases CC-07-784.01,
CC-07-784.02 and CC-07-785 when the deal for a guilty plea was struck. (Doc. 77 at 83; doc.7-10 at 12). Counsel Scott Stewart, appointed to represent Smith on
charges resulting in the November 2007 guilty plea, was present as well. (Doc. 719 Although somewhat indecipherable, Smith asserts counsel Ed Cunningham abandoned him
after these guilty pleas. (Doc. 24 at 34). He claims his next counsel “failed to speak to Smith
before or during proceedings, denying Smith allocution, and autonomy knowledge, for a proper
sentence, then Scott Stewart also abandoned Smith during the 30 day Rule 24 and the 42 day
Rule 4 appeal windows....” Smith “alleges he should be afforded a ‘direct appeal review’ under
the exception window provided through § 2244(d)(A)(B), and (2).” (Doc. 17 at 20-21). The
record reflects Smith was represented by counsel at his guilty plea and sentencing. The ACCA
found this claim by Smith “is refuted by thfLxecord” (doc. 7-37 at 5), and barred by Rule 32.2(c).
Smith v. State, CR 16-0417 at 17.
31

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 32 of 47

10 at 18). And to the extent Smith complains about the appointment of Stewart for
purposes of sentencing only, he has demonstrated no prejudice from Stewart’s
representation of him.
On August 7, 2008, Smith signed a plea agreement which included the
statement “The Defendant specifically reserved NO issues for appellate review”
and “The Defendant agreed that he is pleading guilty freely and voluntarily having
been adequately and satisfactorily represented by Counsel.” (Doc. 7-6 at 19-20).
Counsel B. Dale Stracener signed the agreement the same date, certifying he has
discussed the case with Smith “and have advised the Defendant of the Defendant’s
rights and all possible defenses.” (Id., at 20). Smith and counsel also signed an
“Explanation of Rights and Plea of Guilty” on August 7, 2008, which included an
explanation of possible sentences under the Habitual Offender Act. (Id., at 21-22).
The following exchange then occurred in open court and on the record:
THE COURT: All right. Now, I’m going to show you some forms. I
need you to acknowledge you recognize these forms. And let me say
for the record I said, “Represented by Dale Stracener.” Also present
for the record is Scott Stewart, represents Mr. Stracener (sic) on which
counts?
MR. STEWART: CC-07-786 and 787.
MR. STRACENER: For the record, Your Honor, he represents Mr.
Smith, not Mr. Stracener.
THE COURT: I apologize. You’re right.... Now, these forms
is the plea agreement. Do you recognize that form?
32

first

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 33 of 47

THE DEFENDANT: Yes, sir, I do.
THE COURT: Is this your signature that appears on the back?
THE DEFENDANT: Yes, sir, it is.
THE COURT: Did you sign it of your own free will?
THE DEFENDANT: Yes, sir, I did.
THE COURT: All right. It contains case number CC-07-784.01
784.02, 785, 796, CC-06-269 and CC-06-416 (sic); is that correct?
THE DEFENDANT: (Nods head affirmatively.)
THE COURT: So it’s your understanding that this plea agreement
includes all of these counts?
THE DEFENDANT: Yes, sir, I do.
THE COURT: All right. Now, do you understand the contents of this
agreement or you wish to have any portion of it explained to you?
THE DEFENDANT:
explained it.

I understand it.

Mr. Stracener has already

THE COURT: All right. Next is the Explanation of Rights and Plea
of Guilty. Do you recognize that form?
THE DEFENDANT: Yes, sir, I do.
THE COURT: It is involving CC-07-784.01. Is there a form for the
criminal MR. STRACENER: We just did it for the most serious one, Your
Honor.
THE COURT: Well, there was a second felony.
33

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 34 of 47

MR. STRACENER: Yeah, 784.02 and 785.
THE COURT: Y’all add that to the plea agreement.
MR. PHILLIPS: Just add those numbers on it?
MR. OGLETREE: There was a total of five felonies and two
misdemeanors .... For the record, here are the felonies: CC-2006269, assault first; CC 2007-410, community notification; CC-2007784.01, which was this case, burglary first; CC-2007-784.02, assault
second in this case; CC-2007-786, burglary third, which was one that
he has pled on but not yet sentenced.
MR. PHILLIPS: That one won’t be on the plea agreement, though,
will it?
MR. STRACENER: No, 786 won’t if he’s pled on it already.
MR. OGLETREE: If he’s pled,on it.
And then the two misdemeanors, CC-2007-785 was the
criminal mischief second in this case, And then CC-2007-787 is a
theft of property third that he has already pled to but not yet
sentenced.
THE COURT: All right. Next, I’m going to show you the
Explanation of Rights and Plea of Guilty form. Do you recognize this
form?
THE DEFENDANT: Yes, sir, I do.
THE COURT: And you believe your signature appears on the back of
this form?
THE DEFENDANT: Yes, sir.
THE COURT: Did you sign it of your own free will?
THE DEFENDANT: I did.
34

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 35 of 47

THE COURT: Do you understand the contents of this form, or do
you wish to have Mr. Stewart or Mr. Stracener explain anything to
you?
THE DEFENDANT: I understand it fully.
THE COURT: Now, you understand this Explanation of Rights and
Plea of Guilty involves CC-07-410, which is violation of the
Community Notification Act; CC-07-784.01, which is burglary first;
CC-07-784.02, which is assault second; CC-07-785, criminal
You understand this
mischief; and CC-06-269, assault first.
Explanation of Rights and Plea of Guilty involves all these charges?
THE DEFENDANT: Yes, sir.
THE COURT: All right. Now, you understand that if you plead
guilty in these matters and the Court accepts your plea, that I will
impose a sentence upon you. And due to the range involved that — or
possibilities that I explained to you earlier as a result of the stipulation
of three prior felonies, that there could be - the sentence could be
severe?
THE DEFENDANT: Yes, sir.
THE COURT: All right. Now, you understand that each of these
crimes that you’re charged with, you have not yet pled upon, that you
have the right to say that you’re not guilty?
THE DEFENDANT: Yes, sir.
THE COURT: But do you understand if you tell me that you are not
guilty on each of these, you have the following constitutional rights:
The right to a speedy and public trial?
THE DEFENDANT: Yes, sir.
THE COURT: The right to be tried by a jury?
35

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 36 of 47

THE DEFENDANT: Yes, sir.
THE COURT: The right to see, hear and question all witnesses
against you?
THE DEFENDANT: Yes, sir.
THE COURT: The right at trial to present evidence in your own
behalf and either testify for yourself or remain silent?
THE DEFENDANT: Yes, sir.
THE COURT: The right to have a trial judge order into court
evidence and witnesses that may be in your favor?
THE DEFENDANT: Yes, sir.
THE COURT: And the right to have a qualified attorney, such as Mr.
Stracener and Mr. Stewart, represent you before, during and after any
trial?
THE DEFENDANT: Yes, sir.
THE COURT: But you understand that if you tell me you’re guilty,
that you will give up all these constitutional rights that I’ve just
discussed?
THE DEFENDANT: Yes, sir.
THE COURT: Do you understand you could receive the same
punishment as if you were to maintain that you were not guilty and we
had a trial through jury verdict and a jury happened to find you guilty
and I sentenced you at that time?
THE DEFENDANT: Yes, sir.
THE COURT: Do you understand that you give up your right to an
appeal?
THE DEFENDANT: Yes, sir.
36

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 37 of 47

THE COURT: Understand you’re giving up your right to withdraw
your plea of guilt?
THE DEFENDANT: Yes, sir.
THE COURT: Understand you’re giving up your right to an appellate
bond?
THE DEFENDANT: Yes, sir.
THE COURT: Understand you’re giving up any challenges you could
bring pursuant to Rule 32 of the Alabama Rules of Criminal
Procedure?
THE DEFENDANT: Yes, sir.
THE COURT: Understand you’re waiving any motions, defenses,
objections or requests which you have made in your cases or you
could make in your cases?
THE DEFENDANT: Yes, sir.
THE COURT: You understand that on all these cases you’re
specifically reserving no issues for appellate review?
THE DEFENDANT: Yes, sir.
THE COURT: Has anyone threatened you or your family to get you
to say that you’re guilty?
THE DEFENDANT: No, sir.
THE COURT: Has anyone made any promises of reward to you or
your family in exchange for getting you to say that you’re guilty?
THE DEFENDANT: No, sir.

37

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 38 of 47

THE COURT: Has anyone told you or suggested to you or indicated
to you that you would receive a lighter sentence, probation or other
favor in exchange for saying that you’re guilty?
THE DEFENDANT: No, sir.

THE COURT: What is your plea?
THE DEFENDANT: Guilty, Your Honor.
THE COURT: Now, that is - is that guilty on each of these that I’ve
mentioned?
THE DEFENDANT: Yes, sir, it is.
(Doc. 7-10 at 18-29).
As with the November 2007 plea, this colloquy reflects the petitioner’s plea
of guilty was “intelligent and voluntary.” Massey, 733 F. App’x at 988 (quoting
Boykin, 395 U.S. at 242); see also Ireland v. State, 250 So. 2d 602, 603 (Ala. 1971)
(holding where a defendant signed a lengthy form explaining his rights, his
attorney told him to read the form and the trial court asked the defendant if he has
read and understood the form, guilty plea was knowingly and voluntarily made).
b. Waiver of Right to Appeal
In each of the Sentencing Orders entered by the trial court, the judge noted:
The Defendant having waived his/her right of appeal as part of the
plea agreement herein, the Court specifically finds:
1. Defendant has reserved no issues for appellate review. Defendant
and the Court have entered into a colloquy wherein the Defendant was
advised of the consequences of waiving his/her appeal right, his/her
right to file a motion to withdraw his/her plea within (30) thirty days,
38

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 39 of 47

,-jk

and [his]/her right of appeal in the event the Court denies his/her
motion to withdraw his/her plea.
(Doc. 7-6 at 26 (CC-2006-269), 27 (CC-2007-41), 28 (CC-2007-784.01), 29 (CC2007-784.02), 30 (CC-2007-785); doc. 7-7 at 2 (CC-2007-786), 3 (CC-2007-787)).
The ACCA held:
In his petition, Smith claimed that he failed to file a direct appeal
through no fault of his own because his counsel was ineffective. See
(C. 36-37.) As best we can determine, he attempts to reassert this
claim on appeal. However, on appeal, Smith actually claims that he
failed to appeal through no fault of his own because the trial court told
him that he had no right to appeal under his written plea agreement,
and failed to inform him that he had a right to appellate review of the
denial of his motions to withdraw his guilty plea. Because this claim
is a different claim than the claim he previously raised in his petition,
this claim will not be considered by this Court on appeal. See Pate v.
State, 601 So.2d at 213. To the extent that Smith might have been
attempting to raise a different issue on appeal, Smith’s pleadings and
his appellate brief employ a “scatter-gun” approach and he has failed
to properly apprise this Court of the other possible allegations in a
manner that would allow this court to address such claims.
(Doc. 7-37 at 9). This claim is unexhausted and hence procedurally defaulted as
Smith did not properly raise it in state court.
To the extent Smith challenges his sentence, and not his plea, this does not
provide a basis upon which actual prejudice from ineffective assistance of counsel
can be based. See e.g., Williams v. Sec’y, Dep’t of Corr., 2017 WL 7551046, *3
(11th Cir. Dec. 27, 2017) (unpublished) (citing Johnson v. Alabama, 256 F.3d
1156, 1171 (11th Cir. 2001) (challenge to a guilty plea based on misunderstanding
of sentence does not allege “actual, factual innocence” to excuse procedural
39

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 40 of 47

default). Because Smith’s sentence was within the realm of possible sentences for
the crimes to which he pleaded guilty, he cannot now show imposition of his
sentence prejudiced him.
Finally, Smith’s argument his counsel failed to inform him that if he pleaded
guilty he would waive his rights to federal review (doc. 17 at 50), has no merit and
no foundation in the record. This petition is currently before the court on federal
habeas review and in neither the response nor the supplemental response does the
State assert the petitioner waived this right. As with many of the other grounds
raised by Smith, no evidence supports this argument.
All of the grounds raised by Smith concerning the validity of his guilty
pleas are without merit and due to be dismissed.
2. Claim V: The Assault Conviction20
Smith claims prejudice from counsel’s ineffectiveness because he believes
the state could not prove the “serious physical injury” element for first degree
assault.21 (Doc. 24 at 30). He argues counsel should have researched state law,

20 This claim solely pertains to state court action CC 2006-269.
21 The statute provides that: a person commits first degree assault in Alabama if:
(1) With intent to cause serious physical injury to another person, he or she
causes serious physical injury to any person by means of a deadly weapon or a
dangerous instrument; or
40

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 41 of 47

counsel waived the state’s burden to prove serious physical injury, and but for
counsel’s failure to let him know the state could not show “serious physical
injury,” Smith would not have entered a guilty plea to the first degree assault
charge.

{Id,., at 31).

Smith fails to establish how, if the first degree assault

outcome had been different, this would have had any impact on the sentence he
received, given the sentence was imposed under the Habitual Offender Act and
Smith pleaded guilty to multiple other felonies at the same time. (Doc. 7-6 at 19,
21). Moreover, the record reflects Smith received a life sentence based on his
conviction for first degree burglary, a felony, with which the assault conviction ran

(2) With'intent to disfigure another person seriously and permanently, or to
destroy, amputate or disable permanently a member or organ of the body, he or
she causes such an injury to any person; or
(3) Under circumstances manifesting extreme indifference to the value of human
life, he or she recklessly engages in conduct which creates a grave risk of death
to another person, and thereby causes serious physical injury to any person; or
(4) In the course of and in furtherance of the commission or attempted
commission of arson in the first degree, burglary in the first or second degree,
escape in the first degree, kidnapping in the first degree, rape in the first degree,
robbery in any degree, sodomy in the first degree or any other felony clearly
dangerous to human life, or of immediate flight therefrom, he or she causes a
serious physical injury to another person; or
(5) While driving under the influence of alcohol or a controlled substance or any
combination thereof in violation of Section 32-5A-191 he causes serious bodily
injury to the person of another with a motor vehicle.
Ala. Code § 13A-6-20(a) (1987).
41

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 42 of 47

concurrently.22 {Id., at 21, 26). Because nothing in the first degree assault case,
even complete dismissal of it, would have impacted Smith’s life sentence, he can
show no prejudice resulting from his counsel’s actions,

Moreover, where “a

criminal defendant has solemnly admitted in open court that he is in fact guilty of
the offense with which he is charged, he may not thereafter raise independent
claims relating to deprivation of constitutional rights that occurred prior to the time
.of the plea.” Toilet v. Henderson, 411 U.S. 258, 267 (1973).
3. Claim III: Claim of Denial of Counsel During Collateral Review and
Sentencing
Smith asserts he is entitled to relief because he was denied counsel during
sentencing and on collateral review. (Doc. 17 at 20). As previously stated, the
ACCA found this claim procedurally barred by Rule 32.2(c), Ala. R. Crim. P.
Additionally, Smith had counsel at sentencing. He asserts both that counsel was
appointed “midstream” in the sentencing proceedings, and that counsel would not
speak to him prior to the sentencing proceeding. {Id.). As to Smith’s claims
regarding sentencing, he had two counsel present, one on the charges to which he

22 To the extent Smith argues he could not be convicted of both assault and burglary for
breaking into his mother in law’s home and attacking Jeffrey Dearman therein (doc. 17 at 60),
Smith is simply wrong. Burglary and assault are two separate crimes. While Smith argues that
CC-07-784.01 and CC-07-784.02 both charged assault, in considering this claim on its merits,
the ACCA held “first-degree burglary, where the indictment charges an intent to commit assault,
and second-degrees assault are separate offenses. Second-degree assault under the circumstances
of this case is not a lesser-included offense of first-degree burglary.” Smith v. State, CR-lb0782, at 19 (Ala. Crim. App. 2017).
42

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 43 of 47

pleaded guilty in November 2017, and separate counsel for the remaining charges.
Smith sets forth no allegation as to how counsel’s actions or inactions during
sentencing impacted the outcome of that proceeding and therefore shows no
prejudice from any error by counsel.
As to Smith’s claims regarding lack of counsel on collateral review, post­
conviction proceedings are civil in nature, not criminal, thus no constitutional right
to counsel in a Rule 32 proceeding exists. State v. Click, 768 So. 2d 417, 419 (Ala.
Crim. App. 1999). See also Williams v. Pennsylvania,_U.S.__ , 136 S. Ct. 1899,
1920-21 (2016) (“post-conviction petitioner has no constitutional right to
counsel”); Golston v. Att’y Gen’l of State of Ala., 947 F.2d 908, 911 (11th Cir.
1991 (same). Therefore, neither attorney error nor lack of an attorney in state
collateral proceedings establishes “cause” to excuse a procedural default. Coleman
v. Thompson, 501 U.S. 722, 757 (1991). Even if this claim was not procedurally

defaulted, Smith is entitled to no relief on this ground.
4. The Life Sentences are Manifestly Unjust because the Crime of a
Convicted Sex Offender Changing Residences without Notice was
Repealed on July 1,201123 (doc. 17 at 66)
At the time of his conviction, the relevant law in Alabama was the Alabama
Community Notification Act of 1996. Under that Act, “[a] person convicted of a
criminal sex offense” was considered an adult criminal sex offender under

23 This ground relates solely to the charges in CC-07-41.
43

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 44 of 47

Alabama law subject to the registration, notification, residency and employment
provisions. Ala. Code § 15-20-21(1). Effective July 1, 2011, Alabama replaced its
prior sex offender registry law with ASORCNA, Ala. Code § 15-20A-1, et seq.
ASORCNA sets forth those offenses considered sex offenses in Alabama, Ala.
Code § 15-20A~5(l)-(39), and governs the registration and community notification
requirements applicable to adult sex offenders. Ala. Code § 15-20A-7, § 15-20A10 and § 15-20A-22. ASORCNA is “applicable to every adult sex offender
convicted of a sex offense as defined in Section 15-20A-5, without regard to when
his or her crime or crimes were committed or his or her duty to register arose.”
Ala. Code § 15-20A-3.
In considering this claim on its merits, the ACC A held the statute in effect at
the time of the offense is the applicable penal statute. Smith v. State, CR 16-0782,
at 19-20. “The fact that after Smith had committed and pleaded guilty to violating
the Community Notification Act, it was repealed does not entitle him to relief.”
Id., at 20. As previously stated, to be entitled to relief, a habeas petitioner must
demonstrate that a state trial court’s adjudication of an issue “was contrary to, or
involved an unreasonable application of, clearly established Federal law, as
determined by” the United States Supreme Court, or was “based on an
unreasonable determination of the facts in light of the evidence presented” in state
court. Dunn v. Madison,

U.S. ~, 138 S. Ct. 9, 11 (2017) (quoting 28 U.S.C. §
44

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 45 of 47

2254(d)). State court determinations of factual issues are presumed correct and the
petitioner bears the burden of rebutting that presumption by “clear and convincing
evidence.”

Wood v. Allen, 558 U.S. 290, 293 (2010) {quoting 28 U.S.C. §

2254(e)(1)). State court interpretations of state laws or rules do not raise questions
of a constitutional nature and therefore are not an appropriate basis for federal
habeas corpus relief. Alston v. Dep’t ofCorr., Florida, 610 F.3d 1318, 1326 (11th
Cir. 2010).
Smith identifies no United States Supreme Court case which has held that
the repeal and replacement of a statute voids all convictions under that statute. In
particular, Smith points to no case which has found the language of Ala. Code §
15-20A-3, applying ASORCNA “to every adult sex offender convicted of a sex
offense ... without regard to when his or her crime or crimes were committed ...”
to be unconstitutional. Smith is entitled to no relief on this ground.
RECOMMENDATION
Accordingly, for the reasons stated above, the magistrate judge hereby
RECOMMENDS that the petition for writ of habeas corpus under 28 U.S.C. §
2254 be DENIED and DISMISSED WITH PREJUDICE.
NOTICE OF RIGHT TO OBJECT
A petitioner may file specific written objections to this report and
recommendation. The petitioner must file any objections with the Clerk of Court
45

Case: 4:17-cv-01223-RDP-JEO

Document#: 34-1

Date Filed: 05/07/2019

Page 46 of 47

within fourteen (14) calendar days from the date the report and recommendation is
entered.

Objections should specifically identify all findings of fact and

recommendations to which objection is made and the specific basis for objecting.
Objections also should specifically identify all claims contained in the petition that
the report and recommendation fails to address. Objections should not contain new
allegations, present additional evidence, or repeat legal arguments.
Failing to object to factual and legal conclusions contained in the magistrate
judge’s findings or recommendations waives the right to challenge on appeal those
same conclusions adopted in the district court’s order. In the absence of a proper
objection, however, the court may review on appeal for plain error the unobjected
to factual and legal conclusions if necessary in the interests of justice. 11th Cir. R.
3-1.
On receipt of objections, a United States District Judge will review de novo
those portions of the report and recommendation to which specific objection is
made and may accept, reject, or modify in whole or in part, the undersigned’s
findings of fact and recommendations. The district judge also may refer this action
back to the undersigned with instructions for further proceedings.
The petitioner may not appeal the magistrate judge’s report and
recommendation directly to the United States Court of Appeals for the Eleventh

46

Case: 4:17-cv-01223-RDP-JEO

Document #: 34-1

Date Filed: 05/07/2019

Page 47 of 47

t

Circuit. The petitioner may only appeal from a final judgment entered by a district
judge.
DATED this 7th day of May, 2019.

John E. Ott
Chief United States Magistrate Judge

47

appendix

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020
—.

_

Page 1 of 25 FILEC

.

2020 Feb-19 PM 03:2
U.S. DISTRICT COUR'
N.D. OF ALABAMj

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
MIDDLE DIVISION
DANNY L. SMITH,

)
)

Petitioner,

)
)

v.

)

4:17-cv-01223-RDP-JEO

)

STATE OF ALABAMA, et al.,

)
)

Respondents.

)

memorandum opinion
This is an action for a writ of habeas corpus filed by Petitioner Danny L.
Smith, pro se. Smith filed his petition on July 19, 2017, and amended it on August
2, 2018. (Docs. 1, 17).1 Smith challenges his state-court imposed life sentences for
seven separate felony and misdemeanor charges. (Doc. 17). On May 7, 2019, the
Magistrate Judge entered a report and recommendation pursuant to 28 U.S.C §
636(b), which recommended that his habeas petition be denied. (Doc. 34). Smith
has filed timely .^objections to that report and recommendation.2

(Doc. 37).

tigsis?

Citations herein to “Doc(s). ---- ” are t0 the document number, and page where specified of the
pleadings and other materials in the court file, as compiled by the clerk and reflected on the docket
sheet. Unless otherwise noted, pinpoint citations are to the page of the electronically filed
document, which may not correspond to the pagination on the original “hard copy ”
t ? °r'fnal 0bJectl0ns untamed 109 pages, with an additional 45 pages of exhibits attached
U(D°c. 37). The majority of the exhibits were part of the state court record submitted to this court’
The remaining exhibits concern Smith’s denial of parole on June 14, 2017 (Doc 37 at 149-152)

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 2 of 25

Thereafter, he filed an amended objection, followed by an addendum to his
objections. (Docs. 38-39). Below, the court considers each of his objections.
I.

PROCEDURAL HISTORY
On November 6, 2007, Smith pleaded guilty to third degree burglary and

third-degree theft of property. (Doc. 7-6 at 25; Doc. 7-7 at 2). On August 7, 2008,
Smith pleaded guilty to first degree burglary, second degree assault, first degree
assault, second degree criminal mischief, and violation of the Community
Notification Act. (Doc. 7-6 at 30; Doc. 7-7 at 3; Doc. 7-31 at 40).
Smith was sentenced on August 7, 2008, under the Habitual Offender Act to
life imprisonment in five of these cases, with each of the life terms to run
concurrently to all convictions. (Doc. 7-6 at 26-30; Doc. 7-7 at 2; Doc. 7-10 at 3133). In the two misdemeanor cases (CC-07-785 and CC-07-787), Smith received
12-month sentences, which also ran concurrently with the five life sentences he
received on the felony convictions. (Doc. 7-10 at 33). Smith did not file a direct
appeal.
Smith filed his first motion for collateral review on July 20, 2009, in CC-07786 and CC-07-787.3 (Doc. 7-3 at 16). At some point in September 2009, Smith

3 Those cases were the Burglary 3rd and Theft of Property 3rd, which Smith had pleaded guilty
to on November 6, 2007.® fboC
se-n-UrvCjuJ
2

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 3 of 25

amended his petition to include additional claims.4 (Doc. 7-7 at 16-17). On May 14,
2012, the trial judge dismissed Smith’s Rule 32 petition without prejudice, based on
Alabama Rule of Criminal Procedure 32.1, which prohibits challenging multiple
judgments in one petition. (Id., at 34). Smith appealed that ruling and on December
7, 2012, the Alabama Court of Criminal Appeals affirmed the trial court’s dismissal.
(Id., 7-7 at 36; Doc. 7-13). The Alabama Supreme Court denied certiorari on March
15, 2013. See Ex parte Danny L. Smith, No. 1120438, 162 So. 3d 952 (Ala. 2013)
(table).
On April 5, 2013, Smith filed two new petitions for collateral review under
Rule 32. (Doc. 7-17 at 29, doc. 7-18 at 5, 9). The state circuit court again dismissed
these petitions, this time with prejudice, on September 24, 2013, citing Rule 32.1.
(Doc. 7-17 at 2). Smith again appealed. (Doc. 7-18 at 11,13). On January 12, 2015,
the Alabama Court of Criminal Appeals affirmed the dismissal of the petitions based
upon Smith’s violation of Rule 32.1; however, the appeals court reversed and
remanded the circuit court’s judgment related to the dismissal of the petition without
prejudice. (Doc. 7-21). On February 24, 2015, the Circuit Court of Etowah County
complied with the appeals court order. (Doc. 7-23).

Smith did not appeal that

dismissal.

4 The amendment is undated, and the Etowah County Clerk’s Office stamp is illegible (See doc
7-7 at 16-17).
3

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 4 of 25

On March 12, 2015, Smith filed a third Rule 32 petition. (Doc. 7-24 at 4).
The district attorney again moved to dismiss that petition, asserting Smith again
challenged multiple judgments in a single petition. (Doc. 7-25 at 31). The trial court
dismissed the third Rule 32 petition on May 18, 2015, noting Smith had reserved no
issues for appeal and waived his right to petition for post-conviction relief. (Doc. 725 at 32-33). The trial court further advised Smith that the only grounds on which
he could file post-conviction pleadings were those found in Rule 32.2(a)(3) and (5).5
(Id.). Smith appealed that dismissal6 and on October 16, 2015, the state criminal
appeals court again affirmed the dismissal of his petitions for co-mingling multiple
judgments in a single proceeding.7 (Doc. 7-25 at 56; Doc. 27-28). Smith did not
Qo4'S“fc,Dn'

^

tv-

&-)■. _L5 /-t m&Y«, 4kc/\v on
lAO| P-

in

6

f

&*n~Un<LS- ^>fosjue^ti'nc.'* 7
<£Juvkj&nce-<l'
mu 14t’/oiii,
o fi'Pfl.rl J

^

5 Rule 32.2 states in relevant part:
(a) Preclusion of Grounds. A petitioner will not be given relief under this rule
based on any ground:
(3) Which could have been but was notraisedattrial . unless. the. ground -for relief______
arises under Rule 32.1(b); or
(5) Which could have been but was not raised on appeal, unless the ground for
relief arises under Rule 32.1(b).
In turn, Rule 32.1(b) allows a post-conviction petition for relief if “[t]he court was without
jurisdiction to render judgment or impose sentence ” Rule 32.1(b), Ala. R. Crim. P.
6 Smith actually brought two separate, parallel petitions in his third round of filings seeking
collateral review. (See e.g., Doc. 7-25 at 20, 23, 57).
7 The court delineated these judgments as “his November 2007 guilty plea proceedings, his August
2008 guilty plea proceedings, and a habeas corpus proceeding.” (Doc. 7-28 at 3).
4

rH

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 5 of 25

appeal to the Alabama Supreme Court and the Alabama Court of Criminal Appeals
issued a Certificate of Judgment on November 4, 2015. (Doc. 7-29).
Smith brought a fourth round of Rule 32 proceedings in November 2015.
(Doc. 7-30 at 10). On November 7, 2016, the state filed a response addressing each
of the claims in cases CC-07-786 and CC-07-787 on the merits. (Doc. 7-33 at 26).
In its December 5, 2016 order denying relief, the Rule 32 court addressed these
claims and permanently enjoined Smith from filing any pleading with grounds
previously raised or which could have been raised, unless he first showed good cause
for his failure to raise such claims at an earlier time. (Doc. 7-33 at 58-65). On appeal
(Doc. 7-34 at 5), the Alabama Court of Criminal Appeals held in pertinent part:
First, Smith alleged in his petition that he was entitled to equitable
tolling because the filing of his first Rule 32 petition was timely and
was dismissed without prejudice. Smith maintains that, because all
three of his previous petitions were dismissed without prejudice
because his petitions challenged multiple judgments, he is entitled to
equitable tolling.
The Alabama Supreme Court has held that "

----

“when a Rule 32 petition is time-barred on its face, the
petition must establish entitlement to the remedy afforded
by the doctrine of equitable tolling. A petition that does
not assert equitable tolling, or that asserts it but fails to
state any principle of law or any fact that would entitle the
petitioner to the equitable tolling of the applicable
limitations provision, may be summarily dismissed
without a hearing. Rule 32.7(d), Ala. R. Crim. P.”
Ex parte Ward, 46 So. 3d 888, 897-98 (Ala. 2007). “[T]he threshold
necessary to trigger equitable tolling is very high, lest the exceptions
5

Case: 4:17-cv-01223-RDP-JEO

Document#: 40-1

Date Filed: 02/19/2020

Page 6 of 25

swallow the rule.” United States v. Marcello, 212 F.3d 1005, 1010
(7th Cir. 2000). “Equitable tolling is appropriate when a movant
untimely files because of extraordinary circumstances that are both
beyond his control and unavoidable even with diligence.” Sandvik v.
U.S., 177F.3d 1269, 1271 (11th Cir. 1999) ... Irwin v. Department of
Veteran Affairs, 498 U.S. 89, 96 (1990) (“Federal courts have typically
extended equitable relief only sparingly. We have allowed equitable
tolling in situations where the claimant has actively pursued his
judicial remedies by filing a defective pleading during the statutory
period, or where the complainant has been induced or tricked by his
adversary’s misconduct into allowing the filing deadline to pass.”).
In the present case, although Smith alleges that he was entitled to
equitable tolling in his petition and again on appeal, his assertion is
unavailing. Each of his previous petitions were dismissed on the
ground that his petition challenged multiple judgments, Smith
maintains that, because his first petition was filed within the statutory
period and he was actively seeking judicial remedies from that time,
he should be entitled to equitable tolling. Based on his contention,
Smith could have had a meritorious argument for equitable tolling
when he filed his second petition after the court had explained that he
could not file a petition challenging multiple judgments. However,
Smith continued to file petitions with the same defect even after being
told numerous times by this Court and the circuit court the reason that
the petitions were defective. Thus, the circumstances in the instant
case that Smith claims entitle him to equitable tolling were fully within
Smith’s control and were avoidable with diligence from Smith.
Therefore, Smith has'not pleaded sufficient facts in his Rule 32 petition
to satisfy his high “burden of demonstrating in his petition that there
are such extraordinary circumstances justifying the application of the
doctrine of equitable tolling.” Ex parte Ward, supra.
(Doc. 7-37 at 3-4). After determining that Smith was not entitled to equitable tolling,
and in affirming the trial court’s dismissal of the petition, the Alabama Court of
Criminal Appeals addressed the specific procedural bars which applied to Smith’s
petition. {Id., at 5-11). Smith filed a petition for writ of certiorari with the Alabama
6

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 7 of 25

Supreme Court, but it was denied without opinion, and a certificate of judgment was
entered July 7, 2017. (Doc. 7-40; doc. 7-42).
On July 19, 2017, Smith filed the instant habeas petition in this court. In that
petition, he only addressed his claims arising from cases CC-07-786 and CC-07-787.
(Doc. 1). At the time, his claims based on his August 7, 2008, pleas were still
pending in the Alabama appellate courts. When the Alabama Supreme Court denied
certiorari in those cases, Smith brought a second habeas action in this court. See
1.18-CV-00688-MHH-JEO. Because all of the petitioner’s claims arose out of one
sentencing, this court consolidated the two habeas actions and provided the
petitioner with the opportunity to file an amended habeas petition. He did so and that
amended petition became the operative one for purposes of this court’s review.
(Doc. 17).
The Magistrate Judge received argument and, on May 7, 2019, entered his
report and recommendation. (Doc. 34). Smith filed objections. (Docs. 37-39). The
issues in this case are now ripe for decision, and the court has considered de novo all
the parties’ objections and arguments.
II.

PROCEDURAL OBJECTIONS
Smith advanced several procedural objections to the report. The court

considers them below.

7

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 8 of 25

A. Timeliness
Smith’s first three objections, as well as his first amended objection , concern
the timeliness of his petition in this court. (Doc. 37 at 3-29; doc. 38 at 3). Smith
objects to the finding that he filed his first petition for collateral review in the state
courts on July 20, 2009. (Doc. 37 at 3-15). Specifically, Smith asserts that his
multiple motions to withdraw his guilty pleas, both before and after sentencing,
should count as petitions for collateral review. {Id. at 3). Smith asserts these
“petitions” make the instant petition timely based on equitable tolling. {Id. at 3-7).
This argument has no basis in law.
Motions filed in state court prior to the time a judgment against a defendant
was entered cannot toll that defendant’s time limitation to file a petition for habeas
corpus pursuant to 28 U.S.C. § 2254. See e.g., McCloud v. Hooks, 560 F.3d 1223,
1228 (11th Cir. 2009) (citing Ferreira v. Secretary for the Department of
Corrections, 494 F.3d 1286,1293 (11th Cir. 2007) (“AEDPA’s statute of limitations
begins to run from the date both the conviction and the sentence the petitioner is
serving at the time he files his application become final because judgment is
based on both the conviction and the sentence.”) (emphasis added).8 This objection
is due to be overruled.

In any event, the court notes that the Magistrate Judge did not make a finding as to the timeliness
of the petition in this court. {See Doc. 34 at 10, n. 13)
8

Case: 4:17-cv-01223-RDP-JEO

Document#: 40-1

Date Filed: 02/19/2020

Page 9 of 25

B. Procedural Default9
To the extent Smith is challenging the Magistrate Judge’s finding that some
of his claims were not properly raised in state court, and thus the claims are
unexhausted and therefore defaulted here (Doc. 37 at 7-8), a claim of equitable
tolling does not assist him. A state court’s finding of procedural default under
Alabama Rule of Criminal Procedure 32.2(c) cannot be “cured” by this court
applying equitable tolling to the filing of a petition. Under Martinez v. Ryan, 566
U S. 1 (2012), this court may not review “the merits of a constitutional claim that a
state court declined to hear because the prisoner failed to abide by a state procedural
rule.” Id. at 9. Smith’s contention that the Magistrate Judge made “no finding on the
timeliness of the petition filed in this court” creates a “genuine issue of material fact”
(Doc. 37 at 9-10) has simply no basis in law. This objection is due to be overruled.

Throughout his objections, Smith refers to the Magistrate Judge’s findings regarding claims that
are procedurally defaulted. (Doc. 34 at9-18; Doc, 37 at 7-9, 10, 16-18, 28-29, 104). He objects
* t0 the Magistrate Judge’s synopses of Respondents’ arguments and the Alabama Court of Criminal
Appeals’ rulings. (See e.g., Doc. 37 at 16 (citing Doc. 34 at 10-11)). Smith further objects to the
legal standards recited by the Magistrate Judge. (Doc. 37 at 18 (citing doc. 34 at 11)). As these
are neither findings of fact nor conclusions of law,” Smith’s objections to a summary of what
the Respondents’ argue, to what the Alabama Court of Criminal Appeals held, and to statements
of federal lawaoLdue to be overruled. Smith also “averts [sic] this Court’s attention here to the
Responden^ewiTadnTfesiopsof Smith’s claims in the ‘amended document’ that does establish
Smith’S/aetual claims were erroneously given import deference....” (Doc. 37 at 40) (emphasis in
original). The court construes this (argument as a claim that the Magistrate Judge misstated Smith’s
actual claims. However, a compJison of the claims set forth by Smith in his objections (Doc 37
at 41-43) Wkjuhose recited byfhb Magistrate Judge (Doc. 34 at 8-9), reflects the Magistrate Judge
accurately sumrtrarized-eaeh'of Smith s claims. In any event, if there are semantical differences
the court has reviewed Smith’s claim de novo and will address each of them as he has presented
them. The objection is due to be overruled.
9

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 10 of 25

Smith next argues that this court should apply equitable tolling to find his
state court petitions timely because the state court’s application of Alabama Rule of
Criminal Procedure 32.1(f) is unconstitutional. (Doc. 37 at 15-33; Doc. 38 at 5, 7).
As best the court can glean, Smith contends that the state court rule that requires a
separate Rule 32 petition for each judgment violates his constitutional rights. (Doc.
37 at 15-17). He relies on Carey v. Sqffold, 536 U.S. 214 (2002) in making this
argument. But, that case does not support his position. Carey stands for the wholly
unremarkable requirement that, even under the peculiar nomenclature used in
California, “intervals between a lower court decision and a filing of a new petition
in a higher court are within the scope of the statutory word ‘pending,’” so long as
the time for filing has not expired. Carey, 536 U.S. 214, 223 (2002); vee also Evans
v. Chavis, 546 U.S. 189, 191 (2006) (reaching the same conclusion). This objection

is due to be overruled.
In Smith’s next objection, he claims the state court improperly applied Rule
32.1(f), and this court must “de novo” determine whether Smith diligently pursued
his state court remedies. (Doc. 37 at 19-28, 33-36). Smith bases this assertion on
his belief that he did not have to file separate Rule 32 petitions for each judgment
against him, as required by Rule 32.1(f), although multiple state courts told him he
must do precisely that. (See e.g., Doc^T^at^bJSl^However, ignoring repeated
instructions from multiple courts does not demonstrate that Smith “pursu[ed] his
10

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 11 of 25
\

rights diligently.” Holland v. Florida, 560 U.S. 631, 644 (2010). And, the only
impediment to timely filing in state court was Smith himself. Under these
circumstances, no reasonable jurist would agree that “extraordinary circumstances”
prevented his timely filing. Id. This objection is due to be overruled.
Smith next asserts this court’s instruction to him to file an amended petition
containing all of his claims supports his actions in state court. However, Smith may
not pick and choose between state and federal law to advance his arguments. Rather,
he must comply with both state and federal procedural requirements, respectively,
and those may differ. Smith’s objections to the courts’ requiring adherence to Rule
31.2(f) are due to be overruled.
To the extent Smith complains the Magistrate Judge improperly found some
of Smith’s claims unexhausted (Doc. 37 at 43), the court notes that the Magistrate
Judge also considered all of Smith’s non-procedural claims on their merits. {See
e.g., Doc. 34 at 18). Because Smith is not entitled to habeas relief on the merits of
his claims, regardless of whether they were found to be exhausted, his objections to
the findings of the Magistrate Judge concerning exhaustion are due to be overruled.
Finally, throughout his arguments related to equitable tolling, Smith asserts
that he is entitled to an evidentiary hearing. (Doc. 37 at 9, 10, 12-13, 24, 33-35, 38).
In a habeas corpus proceeding, “[t]he burden is on the petitioner ... to establish the
need for an evidentiary hearing.” Birt v. Montgomery, 725 F.2d 587, 591 (11th
11

Case: 4:17-cv-01223-RDP-JEO

Document#: 40-1

Date Filed: 02/19/2020

Page 12 of 25

Cir.1984) (en banc). “In deciding whether to grant an evidentiary hearing, a federal
court must consider whether such a hearing could enable an applicant to prove the
petition’s factual allegations, which, if true, would entitle the applicant to federal
habeas relief.” Schriro v. Landrigan, 550 U.S. 465, 474 (2007). That means that if a
habeas petition does not allege specific facts that, if they were true, would warrant
relief, the petitioner is not entitled to an evidentiary hearing. Allen v. Sec ’y, Fla.
Dep’t ofCorr., 611 F.3d 740,763 (11th Cir. 2010) (“Having alleged no specific facts
that, if true, would entitle him to federal habeas relief, Allen is not entitled to an
evidentiary hearing.”). Conclusory allegations are simply insufficient to warrant a
hearing. San Martin v. McNeil, 633 F.3d 1257, 1271 (11th Cir. 2011). But, that is
exactly what we have here. Because Smith’s allegations, even if true, do not warrant
equitable tolling, no evidentiary hearing is required.
III. SMITH’S MERITS OBJECTIONS
Smith directs the vast majority of his objections on the merits to the
recommended findings of the Magistrate Judge. To the extent possible, the court
has grouped Smith’s objections by topic. They do not necessarily follow the
groupings Smith used in his objections.
A. Guilty Pleas and Ineffective Assistance of Counsel
Smith challenges the Magistrate Judge’s merits analysis in connection with
his claim that his guilty plea was involuntary. (Doc. 37 at 45-85, 96-103). The first
12

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 13 of 25

set of these objections, advanced under the guise of ineffective assistance of counsel
claims, asserts trial counsel did not do exactly as Smith instructed in certain areas,
such as challenging evidence or calling his “alibi” witness.10

{Id. at 45-48).

However, Smith pleaded guilty to each of the charges. The Magistrate Judge
addressed each of the complained-about shortcomings of Smith’s counsel at the
November 2007 plea hearing, as well as those at the August 2008 plea hearing and
sentencing. As the Magistrate Judge correctly concluded, there is nothing in the
record suggesting that counsel was ineffective and there is no dispute that Smith’s
plea was voluntary. (Doc. 34 at 21-40).
Moreover, Smith s claims based on the perceived shortcomings of counsel
before the entry of his guilty plea are barred by Tollett v. Henderson, 411 U.S.' 258
(1973) and its progeny. In Tollett, the Court concluded that:
a guilty plea represents a break in the chain of events which has
preceded it in the criminal process. When a criminal defendant has
solemnly admitted in open court that he is in fact guilty of the offense
with which-he is charged,-he may not thereafter raise independent
1 The court notes that Smith submitted a hearsay-filled affidavit by Leroy H. Reynolds concerning
the availability, or lack thereof, of witnesses for purposes of trial. (Doc. 37 at 138). Statements
such as “I later learned that Mr. Clark appeared at the courthouse” (id. at 139) are rank hearsay.
Statements such as “Mr. Clark told my daughter ‘she’s lying’” (id. at 140) are double or triple
hearsay. Statements in the affidavit of Patricia R. Jarvis (id. at 144) concerning her father’s
questions to Heather Clark fare no better. She states “I then ask[ed] Jason Clark if Danny Smith
was guilty of the criminal charges that Brandi Smith (Danny Smith’s wife at the time), Mary
Wilson (Danny Smith’s mother-in-law at the time) and Shane Deerman (Brandi Smith’sHve in
boyfriend at the time she was still married to Danny Smith), had filed against him. Jason Clark,
again, shook his head indicating no.” (Id. at 144-45). Even if these affidavits were admissible
(and the court need not rule on that question), nothing in them demonstrates that Smith’s guilty
pleas were involuntary or improper.
13

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 14 of 25

claims relating to the deprivation of constitutional rights that occurred
prior to the entry of the guilty plea.
Id. at 267; see also Lefkowitz v. Newsome, 420 U.S. 283, 289 (1975) (“a guilty plea
represents a break in the chain of events which has preceded it in the criminal
process.”) (quoting Tollett, 411 U.S., at 267)). When he entered his pleas of guilty,
Smith waived any right to subpoena witnesses and gather evidence, and also
abandoned his right to re-litigate what he believes the facts would have been had he
gone to trial.

Smith s objection to the factual findings concerning his guilty pleas

and his claims of ineffective assistance of counsel based thereon,12 are due to be
Smith alleges his evidence would have shown a plot to murder him. (Doc. 37 at 65). He claims
this was all part of a plan to entice him to a place where Smith’s wife’s live-in boyfriend (Deerman)
could shoot him. {Id.). Of course, Smith’s asserted plot would still be consistent with a finding
that Smith indeed broke into the home in question, took Deerman’s shotgun, and knocked Deerman
unconscious with it. (Id.). Smith s murder theory thus depends on Deerman firing the shotgun at
Smith (as Smith was attempting to flee the scene). (Id.). The question of whether separate charges
could have been (or even should have been) brought against Deerman has no bearing on whether
Smith committed assault and burglary. And again, to be clear he admitted he committed those
crimes in his guilty pleas. (See also, id., at 83-84). Certainly, nothing in Smith’s factual claims
establishes he is innocent of breaking into Mary Wilson’s home and threatening its occupants.
12 Woven throughout much ofhis objections are Smith’s statements concerning the validity of his
guilty plea and effectiveness of counsel. For instance, he argues that “[h]ad counsel not lied to
Smith regarding his alibi witness Smith would have had ‘evidence’ before the jury that ‘Smith
was not m the area on the date of the alleged burglary and theft, nor was Smith in jail on the date
the alleged victim would testify to, by lying to Smith about his ‘alibi witness’s’ whereabouts was
by counsel’s design to ‘induce’ Smith’s mind to think he had no chance at trial with a jury this
made the plea confession involuntary.” (Doc. 37 at 47). Smith’s assertions are not sufficient to
warrant habeas relief. See e.g., Preetorius v. United States, 2017 WL 4563085, at *13 (S D Ga
July 19, 2017) (quoting Ross v. Estelle, 694 F.2d 1008,1011-12 (5th Cir. 1983) (’“Absent evidence
in the record, a court cannot consider a habeas petitioner’s bald assertions on a critical issue in his
pro se petition ... unsupported and unsupportable by anything else contained in the record, to be of
probative evidentiary value.”). Additionally, because there are serious questions about whether
some (if not all) of the evidence Smith asserts should have been introduced at trial would have
been inadmissible in the first place, there are also serious questions about whether any alleged
failure to introduce such evidence would have violated Smith’s Sixth Amendment right to effective
14

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 15 of 25

overruled.13
Smith next asserts that, but for counsel’s ineffective assistance, he would not
have pleaded guilty. (Doc. 37 at 50-52). As detailed by the Magistrate Judge in his
recitation about the plea colloquies, Smith’s claims about his supposedly involuntary
pleas are directly refuted by the undisputed record. Smith’s suggestion that his case
falls within the rationale of United States v. Cronic, 466 U.S. 648 (1984), is way off
target. As the Court has observed about its decision in Cronic.
Cronic held that a Sixth Amendment violation may be found “without
inquiring into counsel’s actual performance or requiring the defendant
to show the effect it had on the trial,” Bell v. Cone, 535 U.S. 685, 695
(2002), when “circumstances [exist] that are so likely to prejudice the
accused that the cost of litigating their effect in a particular case is
unjustified,” Cronic, supra, at 658. Cronic, not Strickland, applies
“when ... the likelihood that any lawyer, even a fully competent one,
could provide effective assistance is so small that a presumption of
prejudice is appropriate without inquiry into the actual conduct of the
trial,” 466 U.S., at 659-660, and one circumstance warranting the
presumption is the “complete denial of counsel,” that is, when “counsel
[is] either totally absent, or prevented from assisting the accused during
a critical stage of the proceeding,” id., at 659, and n. 25.

assistance of counsel, even if the case had gone to trial. See e.g., Owen v. Sec ’y ofDept, of Corr.,
568 F.3d 894, 915 (11th Cir. 2009) (where underlying claim lacks merit, counsel is not deficient
for failing to raise it); Bolender v. Singletary, 16 F.3d 1547, 1573 (11th Cir. 1994) (“[I]t is
axiomatic that the failure to raise non-meritorious issues does not constitute ineffective
assistance.”).
13 Smith’s contends that his attorney’s decision to file a motion to continue somehow denied him
effective counsel. (Doc. 37 at 74-75). That contention is hard to understand. Smith’s claim that his
attorney had insufficient time prior to trial to serve subpoenas fails for two reasons (at least). First,
a continuance would have given counsel more time, not less. Second, his plea of guilty to the
offenses negated any need for witnesses at trial. See Toilet, 411 U.S. at 267.
15

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 16 of 25

Wright v. Van Patten, 552 U.S. 120,124-25 (2008) (alterations in original). Simply
put, Cronic is not applicable to Smith’s claims.
Smith also objects to the application of the standard announced in North
Carolina v. Alford, 400 U.S. 25, 31 (1970) to his claim that his guilty plea was not
voluntary. (Doc. 37 at 53). Alford concluded that the proper standard for judging
the voluntariness of a plea “was and remains whether the plea represents a voluntary
and intelligent choice among the alternative courses of action open to the defendant.”
400 U.S. at 31 (citing Boykin v. Alabama, 395 U.S. 238,242 (1969)). Smith provides
no support for his argument that, under Alford, his guilty pleas were involuntary or
not knowingly offered. Smith’s reliance on McMann v. Richardson, 397 U.S. 759
(1970), does not assist him. In McMann, the court held that “a defendants] [mere
allegation] that he pleaded guilty because of a prior coerced confession [does] not,
without more, entitle[] [him] to a hearing on his petition for habeas corpus.”14 Id. at
768.

See also Blackledge v. Allison, 431 U.S. 63, 73-74 (1977) (“Solemn

declarations in open court carry a strong presumption of verity” and this constitutes
a “formidable barrier in any subsequent collateral proceeding.”). For all these

14 In McMann, the Court noted, “[f]or the defendant who considers his confession involuntary
and hence unusable, tendering a plea of guilty would seem a most improbable alternative. The
sensible course would be to contest his guilt, prevail on his confession claim at trial, on appeal, or
if necessary, in a collateral proceeding, and win acquittal, however guilty he might be.” 397 U.S.
at 768.
16

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 17 of 25

reasons, Smith’s objections based on the voluntariness of his pleas are due to be
overruled.
Finally, Smith claims his plea was involuntary because neither his counsel nor
the trial court ensured that Smith “knew the factual elements of the charges of
‘serious physical’ injury.” (Doc. 37 at 96). And, in his amended petition, Smith
contends the state could not prove “serious physical injury.” (Doc. # 17 at 31). He
now also claims that if his counsel had informed him of the proof requirements
related to this element, he would not have pleaded guilty to first degree assault.
(Doc. 17 at 31). The Magistrate Judge found Smith could not demonstrate prejudice
based on his plea because even dismissal of this charge would not have impacted his
life sentence. (Doc. 34 at 41). Smith objects to this finding, and cites Rutledge v.
United States, 517 U.S. 292 (1996). But, Smith’s reliance on Rutledge is misplaced.
In Rutledge, the Supreme Court was concerned with a defendant receiving two
separate sentences for the same conduct—specifically charges for conspiracy to
distribute pursuant to 21 U.S.C. § 846 and a “continuing criminal enterprise”
pursuant to 21 U.S.C. § 848. The Court did not address whether the trial court and/or
counsel ensured the defendant understood every element of a crime. Id., at 306. So
the actual holding in Rutledge provides no assistance to Smith.
In any event, Smith has admitted he knocked his wife’s boyfriend, Deerman,
unconscious.

(Doc. 37 at 65).

While Smith contends in general terms that
17

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 18 of 25

Deerman’s injury was not particularly serious (id. at 102-103), his beliefs do not
support a finding of any constitutionally deficient plea. Smith’s plea colloquy
demonstrated that Smith clearly understood the charges against him.

And, the

Alabama Court of Criminal Appeal’s conclusion that Smith’s plea was voluntary
and intelligent was reasonable. See Massey v. Warden, 733 F. App’x 980, 989-91
(11th Cir. 2018). This objection is due to be overruled.
B. Strategic Choices of Counsel
Many of Smith’s complaints about his trial counsel concern matters of
strategy, such as what witnesses to call, or one counsel’s assessment of the trial
evidence as a “train wreck.” (Doc. 37 at 45-48, 57-63). In relation to these
complaints, Smith does not articulate any particular findings of the Magistrate Judge
that he disagrees with. Instead, Smith rehashes arguments made to the Magistrate
Judge. (Id.). See Heath v. Jones, 863 F.2d 815, 822 (11th Cir. 1989) (“In order to
challenge the findings and recommendations of the magistrate, a party must []
specifically identify the portions of the proposed findings and recommendation to
which objection is made and the specific basis for objection.”).
In any event, ‘[a]n attorney’s strategic choices made after thorough
investigation of the law and facts ‘are virtually unchallengeable.”’ Ledford v.
Warden, Georgia Diagnostic & Classification Prison, 818 F.3d 600, 647 (11th Cir.
2016) (quoting Strickland v. Washington, 466 U.S. 668, 690 (1984)). “‘Which
18

Case: 4:17-cv-01223-RDP-JEO

Document#: 40-1

Date Filed: 02/19/2020

Page 19 of 25

witnesses, if any, to call, and when to call them, is the epitome of a strategic decision,
and it is one that we will seldom, if ever, second guess.’” Ledford, 818 F.3d at 647
(quoting Waters v. Thomas, 46 F.3d 1506, 1512 (11th Cir.1995) (enbanc)). The fact
that a particular approach or defense ultimately proved to be unsuccessful, or that
habeas counsel (or even the habeas petitioner) would have approached a criminal
action differently, does not demonstrate ineffective assistance of counsel. Waters,
46 F.3d at 1522; Chandler v. United States, 218 F.3d 1305, 1318 (11th Cir. 2000)
(“Counsel’s reliance on particular lines of defenses to the exclusion of others—
whether or not he investigated other defenses—is a matter of strategy and is not
ineffective unless the petitioner can prove the chosen course, in itself, was
unreasonable.”).
To reiterate, Smith waived his right to subpoena witnesses and gather
evidence when he entered his pleas of guilty. His plea colloquies reflect that each
of Smith’s pleas of guilty were “intelligent and voluntary.” He may not continue
to re-litigate what he believes the facts would have been had he not pleaded guilty
and gone to trial. Smith’s objections based on his trial counsels’ strategic decisions
are therefore due to be overruled.
C. Double Jeopardy
Smith objects to the Magistrate Judge’s finding that double jeopardy is not
implicated by charges for both burglary and assault in one indictment. (Doc. 37 at
19

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 20 of 25

85-91). His objection is without merit.
The double jeopardy clause protects against multiple punishments for the
same offense. North Carolina v. Pearce, 395 U.S. 711, 717 (1969). In determining
whether the crimes charged are “the same offense,” the inquiry is not whether similar
(or even largely identical) facts may support such charges; rather, the test is “whether
each provision requires proof of a fact which the other does not.” Albernaz v. United
States, 450 U.S. 333 (1981) (quoting Blockburger v. United States, 284 U.S. 299,
305 (1932)). Under Alabama law, second degree assault and first-degree burglary
require proof of different facts. See Smith v. State, CR 16-0782, Doc. 71 at 18-19
(Ala. Crim. App. 2017).15 Specifically, to establish a conviction of second degree
assault pursuant to § 13A-6-21(a)(1), the state must prove beyond a reasonable doubt
that the defendant “caus[ed] serious physical injury to [the victim]” and the
defendant acted “[w]ith intent to cause serious physical injury to another person. «16
For first degree burglary pursuant to § 13A-7-5(a)(2), the elements required are “(1)

15 This court may take judicial notice of state court proceedings. Keith v. DeKalb County, Georgia,
749 F.3d 1034, 1041 n.18 (11th Cir. 2014) (judicial notice taken of an online judicial system
similar to Alacourt.com) (citing Fed. R. Evid. 201); Grider v. Cook, 522 F. App’x 544, 546 n.2
(11th Cir. 2013) (citing Lozman v. City of Riviera Beach, Fla., 713 F.3d 1066, 1075 n.9 (11th Cir.
2013)).
16 Although unclear from his objections, Smith may be attempting to challenge the prosecution’s
decision to charge him with assault second degree, rather than misdemeanor assault. (Doc. 37 at
100). Regardless of whether Smith believes his crimes fit the charges to which he pleaded guilty,
this is wholly a matter of state law. Smith failed to establish any basis for finding the charges
against him were “contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by” the United States Supreme Court. See e.g., Dunn v. Madison, U.S. ~, 138 S. Ct. 9, 11 (2017) (quoting 28 U.S.C. § 2254(d)).
20

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 21 of 25

[tjhat the defendant knowingly and unlawfully entered or remaining unlawfully in
the dwelling of (victim); (2) [t]hat in doing so, the defendant acted with the intent to
commit a crime namely therein ... and (3) [tjhat while in the dwelling or in effecting
entry thereto, or in the immediate flight therefrom, the defendant... caused physical
injury to any person who was not a participant in the crime.” Id. Because assault
and burglary require proof of separate elements, no constitutional violation occurred
when Smith was convicted of both. Smith’s objection to the report and
recommendation on this basis is due to be overruled.
D. Alabama Community Notification Act Repeal
Smith objects to the Magistrate Judge’s finding that the repeal of the Alabama
Community Notification Act (“ACNA”) of 1996, and its subsequent replacement
with the Alabama Sex Offender Registration and Community Notification Act
(“ASORCNA”), did not relieve Smith of his duty to register (nor make his relevant
conduct not criminalM'^oc737at 92-95) Itnparti cu 1 ar, Smith argues that the repeal
of the ACNA means his prior conduct is no longervcriminal. (Id. at 92). While this
may be true, the problem with Smith’s argument is jhat this claim arises solely

under

state law and therefore does not raise any clairn of a constitutional nature. This
objection is therefore

to be overruled-^

E. Actual Innocence
Smith’s assertion of “actual, factual innocence” (Doc. 37 at 62, 78-79) is also
21

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 22 of 25

off the mark. First, Smith failed to raise this claim in his amended petition. (See
Doc. 34 at 14). But, even if he had raised it, “actual innocence” has never been held
to be a stand alone basis upon which habeas relief may be granted.17 Rather, it serves
as a gateway through which a petitioner may pass,” whether impeded by a procedural
bar or a statute of limitations. McQuiggin v. Perkins, 569 U.S. 383, 386 (2013). In
House v. Bell, 547 U.S. 518 (2006), the Supreme Court made clear that a claim of
actual innocence may excuse a procedural default by the failure to raise such claims
in state court. Id. at 522. Here, however, the Magistrate Judge considered Smith’s
claims on their merits; therefore, Smith’s arguments18 about his actual innocence are
off the mark, and this objection is due to be overruled.

17 The Supreme Court “ha[s] not resolved whether a prisoner may be entitled to habeas relief
based on a freestanding claim of actual innocence.” McQuiggin, 569 U.S. at 392. The Eleventh
Circuit has assumed such a claim may be “brought in a capital case” where a demonstration of
actual innocence “would render the execution of a defendant unconstitutional” and therefore merit
habeas relief if no state avenues were available. Magluta v. United States, 660 F. App’x 803, 807
(11th Cir. 2016) (emphasis in original). However, “[cjlaims of actual innocence based on newly
discovered evidence have never been held to state a ground for federal habeas relief absent an
independent constitutional violation occurring in the underlying state criminal proceeding.
Herrera v. Collins, 506 U.S. 390, 400 (1993). It is not a federal court’s role “to make an
independent determination of petitioner’s guilt or innocence based on evidence that has emerged
since trial,” because the federal court’s role in habeas claims is “to ensure that individuals are not
imprisoned in violation of the Constitution - not to correct errors of fact.” Brownlee v. Haley, 306
F.3d 1043, 1065 (11th Cir. 2002).
18 Smith alleges that not only is he innocent of the charges to which he pleaded guilty, but also
that had his attorney collected the evidence Smith instructed him too, a “reasonable jurist would
have concluded Brandi Smith lied to get the [Protection from Abuse (“PFA”) order], then
apparently had a motive for obtaining that PFA, and that Brandi Smith was clearly ‘enticing ‘
Smith by coming to his workplace just before this incident, and that Smith was indeed being set
up to be murdered.” (Doc. 37 at 64).
22

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 23 of 25

Smith also suggests that, but for threats made to his witnesses by Brandi Smith
and Mark Wilson, he would have had witnesses to testify that he was innocent. (See
e.g., Doc. 37 at 76-80). For example, he asserts Jason Clark would have appeared
to testify on his behalf, but threats from Smith and Wilson scared Clark away. (Id.
at 77). But again, because he ultimately pleaded guilty, Smith’s objections based on
his “actual innocence” and his arguments about what may have happened at trial if
he had not pleaded guilty are without merit and therefore due to be overruled.
F. Habitual Offender Act
In his addendum to his initial objections, Smith challenges the imposition of
his sentence based on Alabama’s Habitual Offender Act. (Doc. 39). Smith claims
his stipulation that he had to his prior felony convictions did not waive the state’s
burden to prove those convictions, and therefore he is due habeas relief.19 (Id. at 35). However, as the state court records demonstrate, after his first guilty plea, trial
counsel refused to stipulate to Smith’s prior convictions (Doc. 7-7 at 78-79);
however, Smith later stipulated to these prior felonies. (Doc. 7-10 at 29).
State court determinations of factual issues are presumed correct and a habeas
petitioner bears the burden of rebutting that presumption by “clear and convincing

19 This claim, challenging the propriety of the waiver of the state’s burden of proof to establish at
least three prior felonies, is raised for the first time in Smith’s addendum to his objections. (Doc.
39). He did, however, challenge other aspects of the application of the Habitual Offender Act to
his sentence. (See e.g., doc. 7-37 at 9-10).
23

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

Date Filed: 02/19/2020

Page 24 of 25

evidence.” Wood v. Allen, 558 U.S. 290, 293 (2010) (quoting 28 U.S.C. §
2254(e)(1)). Whether or not Smith had three prior felonies is a question of fact
suitable to stipulation. See § 13A-5-10.1(a), Ala.Code 1975 (“Certified copies of
case action summary sheets, docket sheets or other records of the court are
admissible for the purpose of proving prior convictions of a crime.”); see also Hines
v. Thomas, 2016 WL 4492816, *19 (S.D. Ala. Feb. 1, 2016) (noting that “Alabama

courts held that prior convictions could be proved by a certified minute entry, a
certified judgment entry, or by the defendant’s admission of the prior conviction.”)
(citations omitted); Debardelaben v. Price, 2015 WL 1474615, *6 (M.D. Ala. 2015)
(gathering cases on the point of law). Had Smith refused to stipulate to the existence
of these prior felonies, the state would have had the option of producing certified
copies of the convictions. See e.g., Jones v. White, 992 F.2d 1548, 1555 n.4 (11th
Cir. 1993). But, in light of his later stipulation, wherein he agreed that he did in fact
commit the felonies at issue, that was unnecessary. For these reasons, Smith’s
objection is without merit and therefore due to be overruled.
IV. CONCLUSION
Having carefully reviewed and considered de novo all the materials in the
court file, including the Magistrate Judge’s Report and Recommendation and
Smith’s objections, amended objections and addendum, the court concludes that the
Magistrate Judge’s findings are due to be and are hereby ADOPTED and his
24

Case: 4:17-cv-01223-RDP-JEO

Document #: 40-1

recommendation is ACCEPTED.

Date Filed: 02/19/2020

Page 25 of 25

Smith’s objections are OVERRULED.

Accordingly, the petition for writ of habeas corpus is due to be denied and dismissed
with prejudice.
Further, the court concludes the petition does not present issues that are
debatable among jurists of reason. Therefore, a certificate of appealability is due to
be denied. See 28 U.S.C. § 2253(c); Slack v. McDaniel, 529 U.S. 473, 484-85
(2000); Rule 11(a), Rules Governing § 2254 Proceedings. A separate Final Order
will be entered.
DONE and ORDERED this February 19, 2020.

RV DAVID PROCTORUNITED STATES DISTRICT JUDGE

25

Case: 4:17-cv-01223-RDP-JEO

Document#: 41-1

Date Filed: 02/19/2020

Page 1 of 1 FILEC
2020 Feb-19 PM 03:3
U.S. DISTRICT COUR'
N.D. OFALABAM,

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
MIDDLE DIVISION
DANNY L. SMITH,

)
)
)
)

Petitioner,
v.

)

Case No.: 4:17-cv-01223-RDP-JEO

)
)
)
)

STATE OF ALABAMA, et al.,
Respondents.

FINAL ORDER
For the reasons stated in the Memorandum Opinion entered contemporaneously herewith,
this action for a writ of habeas corpus filed by petitioner Danny L. Smith is DISMISSED WITH
PREJUDICE. A certificate of appealability under 28 U.S.C. § 2253(c) is DENIED.
DONE and ORDERED this February 19, 2020.

R. DAVID PROCTOR^
UNITED STATES DISTRICT JUDGE

1

A P P

D I X

Case: 4:17-cv-01223-RDP-JEO

Document #: 49-1

Date Filed: 04/27/2020

Page 1 of 6 Ml_tL
2020 Apr-27 PM 04:3
U.S. DISTRICT COUR'
N.D. OF ALABAMj

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
MIDDLE DIVISION
)

DANNY L. SMITH,

)
)

Petitioner,

)

)

v.

Case No.: 4:17-cv-01223-RDP-JEO

)

STATE OF ALABAMA, et al.,

)
)

Respondents.

)

MEMORANDUM OPINION
This is an

action for a writ of habeas corpus filed by Petitioner Danny L.

Smith, pro se, on or

about July 19,2017, as amended August 2, 2018. (Docs. 1, 17).

After entry of a memorandum opinion and final judgment on February 19, 2020
(Docs. 40, 41), Petitioner filed a “Motion to Set Aside Judgment with Objection to
the Judgment and Assignment of Error on Appeal Pursuant to Rule 59(e) , Fed. R.
Civ. P.”. (Doc. 47).

The facts underlying the habeas petition have been set forth in

detail in the Magistrate Judge’s Report and Recommendation (Doc. 34) and, unless
otherwise necessary for context, will not be repeated here.
“A Rule 59(e) motion can be granted based only on “newly -discovered
evidence or manifest errors of law or fact. ” Hamilton v. Sec ’y, Fla. Dep ’t of Corr.,
793 F.3d 1261,

1266 (11th Cir. 2015) (quoting Arthur v. King, 500 F.3d 1335,1343

(11th Cir. 2007)).

A Rule 59(e) motion cannot be used “to relitigate old matters,

Case: 4:17-cv-01223-RDP-JEO

raise arguments] or

Document #: 49-1

Page 2 of 6

present evidence that could have been raised prior to the entry

of judgment.” Michael Linet, Inc. v.
(llthCir. 2005).

Date Filed: 04/27/2020

Vill. of Wellington, Fla., 408 F.3d 757, 763

The Eleventh Circuit has further directed that “a Rule 59(e) motion

cannot be used simply as

a tool to reopen litigation where a party has failed to take

advantage of earlier opportunities to make [his] case. ” Stansell v. Revolutionary
Armed Forces of Colombia, 771 F.3d 713,744 (11th Cir. 2014).
Petitioner’s motion fails to show that the court should reconsider the denial of
his § 2254 petition

None of his arguments point to a manifest error of law or fact

or newly discovered evidence.
Petitioner

first claims the court erred by not addressing his statutory tolling

v. Jones, 960 F.2d 925 (11th
arguments , and asserts this failure contravenes Clisby

Cir. 1992). (Doc. 47 at 2). But, Clisby only mandates that district courts address
“all claims for relief raised in a petition for writ of habeas corpus pursuant to 28
U.S.C.

§ 2254 (1988), regardless whether habeas relief is granted or denied. ... A

claim for relief for purposes
violation.” Id., at 936.

of this instruction is any allegation of a constitutional

Statutory tolling does not state an independent allegation of

a constitutional violation.

Because the court addressed all non-procedurally

defaulted claims on their merits, statutory tolling provides no benefit to Petitioner.
Further, and in any event

the court assumed Petitioner’s petitions here were timely

filed. (See Doc. 34 at 10, n. 13).
2

Case: 4:17-cv-01223-RDP-JEO

Document#: 49-1

Date Filed: 04/27/2020

Page 3 of 6

Petitioner next contends (in the context of his statutory tolling argument) that
this court failed to properly address his motions to withdraw his state court guilty
pleas. (Doc. 47 at 4). But, the court fully addressed this issue in its memorandum
opinion of February 19, 2020. (See Doc. 40 at 8). A Rule 59(e) motion cannot be
used “to relitigate old matters, raise argument^] or present evidence that could have
been raised prior to the entry of judgment. ” Michael Linet, Inc., 408 F.3d at 763.
To the extent Petitioner is attempting to state that his motions to withdraw his guilty
pleas in state court should have been considered as timely petitions for collateral
review by the state court (Doc. 47 at 6-9), that argument fails to raise a claim of
constitutional proportion.1
Petitioner’s reliance on Artuz v. Bennet, 531 U.S. 4, 8 (2000), which
concerned the determination of when an application for habeas relief is properly
filed, does not call for a different result. Nothing in Artuz suggests that a motion to
withdraw a guilty plea can serve as a putative motion for collateral review. Further,
Petitioner’s attempts to raise new objections to the Report and Recommendation
(Doc. 40 at 6) are similarly barred.

1 Petitioner points to no precedent which could support an Alabama court considering a
motion to withdraw a guilty plea as a petition for collateral review under Alabama Rule of Criminal
Appellate Procedure 32. But even if he had done so, that remains a question of state law. 1 his
court may not re-examine state court determinations of state law questions. Estelle v. McGuire,
502 U.S. 62, 67-68 (1991).
3

Case: 4:17-cv-01223-RDP-JEO

Document#: 49-1

Date Filed: 04/27/2020

Page 4 of 6

Petitioner’s third and fourth bases for his motion to alter or amend each rely
on statutory tolling. (Doc. 47 at 10, 11). He asserts he is entitled to a Certificate of
Appealability pursuant to 28 U.S.C. § 2253 because the court chose to address his
claims on their merits rather than consider whether they were statutorily barred. (Id.)
A court may consider time-barred claims raised in habeas petitions on their merits
when doing so serves the interests of justice. See, e.g., Day v. McDonough, 547 U.S.
198,210 (2006). Indeed, the only effect that a finding that Petitioner s claims are not
statutorily barred would have is to entitle Petitioner to a ruling on the merits of his
claims. But, this court has already addressed the merits of his claims.
Petitioner further argues this court should have found the state court petitions
timely filed, and thus the claims raised there not procedurally defaulted. However,
decisions such as Martinez v. Ryan, 566 U.S. 1, 9 (2012), and Atkins v. Singletary,
965 F.2d 952, 956 (11th Cir. 1992), counsel against such a determination. Indeed,
both these cases call for this court to respect state court determinations on state court
rules.

Moreover, thi

court con! i^ered whether any of Petitioner’s claims

demonstrated “a decision which was Contrary to, or involved an unreasonable
' i/

application of, cleaHy established Fede: .1 law, as determined by the Supreme Court
of the United Statev\28 U.S.C/s 2254(d)(1), and concluded they did not.
Revisiting the timeliness of Petitioner’s state court petitions does not change any
outcome.
4

Case: 4:17-cv-01223-RDP-JEO

Document #: 49-1

Date Filed: 04/27/2020

Page 5 of 6

Petitioner also asserts that the state court’s reliance on Rule 32.1(f), to require
, was misplaced.2
separate collateral petitions for each of the judgments against him
(Doc. 47 at 15-22). He points to Burton v. Stewart, 549 U.S. 147 (2007), in support
of his claim. Specifically, Petitioner references Burton’s citation to Berman v.
United States, 302 U.S. 211, 212 (1937), which held that a “[fjinal judgment in a
criminal case means sentence.
47 at 20). But Burton, which

The sentence is the judgment.” Id., at 156. (See Doc.
concerned federal review of petitions containing both

exhausted and unexhausted claims, does not provide any help to him. Although
Petitioner was sentenced in multiple cases at the same time, Rule 32.1(f) does not
require separate petitions for each conviction. And, in any event, “federal habeas
corpus

relief does not lie for errors of state law[,]” Estelle v. McGuire, 502 U.S. 62,

67 (199D (quotation omitted); nor does “an alleged defect in a collateral proceeding
[] state a basis for habeas relief
(11th Cir.

.” Alston v. Dep’t of Corn, Fla., 610 F.3d 1318,1325

2010) (quoting Quince v. Crosby, 360 F.3d 1259,1262 (11th Cir. 2004)).

Regardless of whether the state courts were correct in their interpretation of Rule
32.1(f), Petitioner

cannot rely on any such claimed error as a basis for federal habeas

relief.

in relevant part, “A petition that
2 Alabama Rule of Criminal Procedure 32.1 states
single trial or guilty-plea proceeding shall
challenges multiple judgments entered in more than a
be dismissed without prejudice.
5

Case: 4:17-cv-01223-RDP-JEO

Document#: 49-1

Date Filed: 04/27/2020

Page 6 of 6

Finally, Petitioner reasserts that his guilty plea was coerced. (Doc. 47 at 29).
But, his motion merely rehashes his prior arguments concerning his counsel not
conducting a thorough investigation (in a manner Petitioner deems appropriate) and
claims that this court failed to consider new evidence in the form of an affidavit from
his investigator. (Id.). Petitioner’s disagreement with this court’s findings merely
reiterates his arguments that were rejected by the court. Of course, that is an
insufficient basis for relief on a motion to alter or amend. See e.g, Stansell, 111 F.3d
at 744.
For all these reasons, and after careful review, the court DENIES Petitioner’s
motion to alter or amend the judgment. (Doc. 47).
DONE and ORDERED this April 27, 2020.

R. DAVID PROCTOR^
UNITED STATES DISTRICT JUDGE

6

Case: 4:17-cv-01223-RDP-JEO

Document#: 50-1

Date Filed: 04/27/2020

Page 1 of 1 HLtL
2020 Apr-27 PM 04:3
U.S. DISTRICT COUR'
N.D. OFALABAM,

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
MIDDLE DIVISION
DANNY L. SMITH
Petitioner,

)
)
)
)

)

v.
STATE OF ALABAMA, et al.,
Respondents.

Case No.: 4:17-cv-01223-RDP-JEO

)
)
)
)

FINAL JUDGMENT
This case is before the court on Petitioner Danny L. Smith’s “Motion to Set Aside
Judgment With Objection to the Judgment and Assignment of Error on Appeal Pursuant to Rule
59(c).” (Doc. # 47). For the reasons discussed in the contemrpoaneously entered memorandum
opinion, Petitioner’s Motion (Doc. # 47) is DENIED. Final judgment is entered on behalf of
Respondents. The Clerk of Court is DIRECTED to close this case.
DONE and ORDERED this April 27, 2020.

RfDAVlDPRdcTbR^
UNITED STATES DISTRICT JUDGE

Case: 4:17-cv-01223-RDP-JEO

Document#: 51-1

Date Filed: 04/27/2020

Page 1 of 2 FILEC
2020 Apr-27 PM 04:4
U.S. DISTRICT COUR
N.D. OFALABAM,

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
MIDDLE DIVISION
DANNY L. SMITH

)
)
)
)

Petitioner,

)

v.

Case No.: 4:17-cv-01223-RDP-JEO

)
)
)
)

STATE OF ALABAMA, et al.,
Respondents.

ORDER REGARDING APPEAL IN HABEAS CASE
Petitioner has filed a Notice of Appeal and an application to proceed in forma pauperis on
appeal. (Docs. 42, 48). This court certifies that this appeal is not taken in good faith and
> • i-

authorization to proceed on appeal in forma pauperis is therefore DENIED. The claims raised by
Petitioner present no issues fairly debatable among reasonable jurists. Therefore, this appeal is
frivolous.
Pursuant to 28 U.S.C. § 2253 (as amended), an appeal may not be taken in this action unless
the court issues a certificate of appealability. This court may issue a certificate of appealability
“only if the applicant has made a substantial showing of the denial of a constitutional right.” 28
U.S.C. § 2253(c)(2). To make such a showing, a “petitioner must demonstrate that reasonable
jurists would find the district court’s assessment of the constitutional claims debatable or wrong,”
Slack v. McDaniel, 529 U.S. 473, 484 (2000), or that “the issues presented were adequate to
deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 336 (2003)
(internal quotations omitted). Petitioner’s claims do not satisfy either standard and therefore, a
certificate of appealability is DENIED.
1

Case: 4:17-cv-01223-RDP-JEO

Document#: 51-1

Date Filed: 04/27/2020

Page 2 of 2

Petitioner is ADVISED that he may file an application to proceed on appeal in forma
pauperis and a request for certificate of appealability directly with the Court of Appeals for the
Eleventh Circuit.
DONE and ORDERED this April 27, 2020.

R. DAVID PROCTOR'-'
UNITED STATES DISTRICT JUDGE

2

USCA11 Case: 20-10956

Date Filed: 10/27/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10956-G

DANNY L SMITH,
Petitioner-Appellant,
versus
STATE OF ALABAMA,
LIMESTONE PRISON,
WARDEN,
Respondents-Appellees.

Appeal from the United States District Court
for the Northern District of Alabama

Before: WILSON and JILL PRYOR, Circuit Judges.
BY THE COURT:
Danny Smith has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-1(c) and
27-2, of this Court’s September 2, 2020, order denying a certificate of appealability and leave to
proceed in forma pauperis in his appeal of the district court’s denial of his pro se petition for a
writ of habeas corpus, pursuant to 28 U.S.C. § 2254.

Upon review, Smith’s motion for

reconsideration is DENIED because he has offered no new evidence or arguments of merit to
warrant relief.

appendix

jsaamtffiBffl'B

33

THE STATE OF ALABAMA - * JUDICIAL DEPARTMENT
THE ALABAMA COURT OF CRIMINAL APPEALS
CR-I4-1281
Danny L. Smith, Appellant
vs.

State of Alabama, Appellee
Appeal from Etowah Circuit Court No. CC-06-269,62;
CC-07-41.62; CC-07-784.62; CC-07-7E5.62

OEME
Danny L. Smith appeals from the circuit court's summary dismissal, without prejudice, ofhis
Rule 32 petition for postconviction relief. See Rule 32.1(f), Ala, R. Crim. P. The petition
challenged Smith’s August 7, 2008, guilty plea convictions to first-degree assault, case no.
CC-06-269; to violating the Community Notification Act, case no. CC-07-410; to first-degree
burglary, case no. CC-Q7-784.Q1; and, to second-degree assault, case no. CC-07-784.02, Smith was
also sentenced on August 7,2008, as a habitual offender to life imprisonment for each of the four
convictions. AH the sentences were ordered to be served concurrently. Smith did not appeal his
convictions and sentences.
Smith included as an exhibit to his petition the guilty plea colloquy from August 7,2008.
The colloquy contains the following passage:
"[The Court:] AH right, then. Please state to the Court your plea to the
crimes you're charged within this matter that are specifically being contemplated
today as far as a plea. And that would be CC-07-784.01, burglary first; CC-07-410,
violation of the Community Notification Act; CC-07-784.02, assault second;
CC-07-785, criminal mischief; and CC-06-269, assault first."
(C, 61.)
Smith docs not challenge his misdemeanor conviction in CC-07-785 for criminal mischief
in the petition.
After the State responded, the circuit court entered an order dismissing the petition pursuant
to Rule 32.1(f), Ala. R. Crim. P., which states in pertinent part:

FILED
FEBO* 2016
CASSANDRA 'SAM* JOHNSON

ORCurr court cuerk

f

i
i

[mOIMBMTB

34

“ORDER
"THIS MATTER coming before this Court on a successive Petition for Relief
filed by the Defendant pursuant to the provisions of Rule 32, A.R.Cr.P.: and this
Court> gxjSM^ajnptu, having proceeded to review the same, and upon such review.
"IT APPEARING TO THE COURT that such Petition, on its face, shows that
it is challenging multiple judgments entered in more than a single trial or guilty-plea
proceeding; and
"IT FURTHER APPEARING TO THE COURT that such is specifically
prohibited under the provisions ofRuie 32.1. A.R.O.P. [see also Lucas v. State. 855
So.2d 1128 (2003)]; and
"The Court having considered the foregoing, and upon due consideration
thereof it is hereby
"ORDERED, ADJUDGED, AND DECREED BY THE COURT that the
Defendant's Petition for Relief filed pursuant to the provisions of Rule 32, A.R.Cr.P.
be, and the same hereby is, dismissed without prejudice in accordance with the
provisions of Rule 32.1. A.R.Cr.P."
(C. 96.)
j

Smith's petition challenged multiple judgments entered in only a single guilty-plea
proceeding, therefore, the circuit court erroneously dismissed his petition.
Therefore, the circuit court’s judgment dismissing foe petition is due to be, and is hereby,
REVERSED and the cause is REMANDED to the Etowah Circuit Court for that court to set aside
its judgment summarily dismissing Smith's Rule 32 petition and to consider foie claims in Smith's
Rule 32 petition.
Wisdom, P.J., and Welch, Kellian, Burke, and Joiner, JJ„ concur.
Done thfs 4th day of February, 2016.

Mary be*
\
cc:

er

WINDOW, PRESIDING JUDGE

Hon, David A. Kimberly, Judge
Hon. Cassandra Johnson, Clerk
Danny L. Smith, pro se
Christie O. WiQcerson, Office of the Attorney General
Office of the Attorney General
2

FILED
FEB 0*2016
CASSANDRA “SAM" JOHNSON
CIRCUIT COURT CIERK

THE STATE OF ALABAMA - - JUDICIAL DEPARTMENT
THE ALABAMA COURT OF CRIMINAL APPEALS

CR-14-1281
Danny L. Smith v. State of Alabama (Appeal from Etowah Circuit Court: CC06-269 62CC07-41.62; CC07-784.62; CC07-785.62)
’ ’

CERTIFICATE OF JUDGMENT
WHEREAS, the appeal in the above referenced cause has been duly submitted and
considered by the Court of Criminal Appeals; and
WHEREAS, the judgment indicated below was entered in this cause on February 4th
2016:

Reversed and Remanded.
NOW, THEREFORE, pursuant to Rule 41 of the Alabama Rules of Appellate
Procedure, it is hereby certified that the aforesaid judgment is final.
Witness.D. Scott Mitchell, Clerk
Court of Criminal Appeals, bn this
the 24th day of February, 2016.

7).
Clerk
Court of Criminal Appeals
State of Alabama
cc: Hon. David A. Kimberley, Circuit Judge
Hon. Cassandra "Sam" Johnson, Circuit Clerk
Danny L. Smith, Fro Se
Kristi O Wilkerson, Asst. Attorney General

EXHIBIT-2 pg. *1 of *1.

THE STATE OF ALABAMA - - JUDICIAL DEPARTMENT
THE ALABAMA COURT OF CRIMINAL APPEALS

CR-16-0782
Danny L. Smith v. State of Alabama (Appeal from Etowah Circuit Court: CC06-269.80;
CC07-41.80; CC07-784.80; CC07-785.80)

CERTIFICATE OF JUDGMENT
WHEREAS, the appeal in the above referenced cause has been duly submitted and
considered by the Court of Criminal Appeals; and
WHEREAS, the judgment indicated below was entered in this cause on December 8th
2017:
Affirmed by Memorandum.
NOW, THEREFORE, pursuant to Rule 41 of the Alabama Rules of Appellate
Procedure, it is hereby certified that the aforesaid judgment is final.
Witness.D. Scott Mitchell, Clerk
Court of Criminal Appeals, on this
the 16th day of March, 2018.

rZ).
Clerk
Court of Criminal Appeals
State of Alabama
cc: Hon. David A. Kimberley, Circuit Judge
Hon. Cassandra "Sam" Johnson, Circuit Clerk
Danny Lewis Smith, Pro Se
Tracy Millar Daniel, Asst. Atty. Gen.

1

DOCUMENT 2
■•

:

',: •; .: :
:
:•: : •: ' ;: ••-: •: - •.
:
: ••
: UV-V^-'
•;
•o-; :;-v:.v:S:

•:
:• .:•'.

1

i

.. ks

•'y

: : : ; : : "V
;•;
;; : : :
: :: : :: :
:
r.' :

V

P

■*

V:
::
:'.

::
'•v :

: :
;
:

••

•t

: :

:

■■

r •••

:

'

•’

:: :

:
*

:
:
l)ANNY:n SMITE-;
:
;• : :;: : :T :5: V.:
: : : •:* 1; : • : •' . : :* ...•. = •*: V
••;;y Vv-.-r.y : :
::: :'V.!.'-V
:•
:
;: : . .
: • • • • • . : • vV/VT-v" : :
:
:
:
:
:
:
.*• •
/•

iv; m-.

;• : : •
:

:

:• :
: :
: :•
: *. :
:

X/Wv :

t &.W'
:
;

:• :
: : : :
: ; :

•: :
:

:: :
:: : :

:

: : : •;: •

:*

r

:

:

.

:

: .* : ‘ • ..: * .: * ': : -

"•

:*

; ’

•*V

:,-y-C-yv
'K:
:

: :* ; :
:
: :

:
:•

1

:

:

y ■ .

:

:

:

.:
y

:: •' ;:• :
:
;.

V-

:

:

i

;

.. ;• '

:
.: Appeals, takes the following action;

s

t

CaieNo.tCC-200j6-269.62; y;.. •
•MV/Vy; CC-200.7-4;ij52i"X • • •
: :^:-:';!V'iGfe20(r7-7S4.a^;': :X- X.-

••

•}

:
dismissing the Rule 32 P^|tibiits SEX;';The.

I

:

■if
5.>

: • :•

:•

jj

:

:D

::
:::

; ; :
: ,: :
;: :• : : • .

-.fc®

l;v.T-.: y-•:

:

............................................
: : '■•■■'

:

;
'

:

;

'

::

•;

s?

§

•55

■;

Done this the 24tft day of febrnaty, 2016,
:i :

t

a
l1
iII

:

8

I
cc;

I

I
&
i'

si

1

1

: ;

7x//

DAVID A: KlMBHRLEY’f*aSTudge

I

i%

:
;

Court of Criminal Appeals {CR.-14-1281}

v

:

:;
r-

DOCUMENT 56

220

•i

STATE OF ALABAMA,
PLAINTIFF

IN THE CIRCUIT COURT OF
:

ETOWAH COUNTY, ALABAMA

VS.
CRIMINAL DIVISION
DANNY L. SMITH,

:

DEFENDANT

FEB 0 7 201?

CASE NOS. CC-O6-OO0269.fc2-DAK
CC-07-QQQQ4L.S2-QAK
CC~G7c:000784.62-DAK
CC-G7-000785.S2-DAK

scanned
DATE

COMES NOW
Office for the
dismissing the
the provisions
shows unto the
j

MOTION TO DISMISS
the State of Alabama, by and through the District Attorney's
Sixteenth Judicial Circuit, and moves the Court for an Order
Defendant's successive Petition for Relief filed pursuant to
of Rule 32, A.R.Cr.P,; and as grounds in support thereof,
Court as follows, to-wit:

(1) Without wasting any more of the State's or the Court's time in
dealing with this matter, the State of Alabama would point out that this
Petition, together with the Amendment filed to it, fail to allege any
facts or matters addressing the jurisdiction of the Court. The matters
contained in such Petition, and the same as amended, without more, are
precluded under the provisions of Rule 32.2(c), A.R.Cr.P., due to the fact
that the Defendant did not appeal his pleas of guilty and sentencings to
the Alabama Court of Criminal Appeals; and more than one year from the time
to take such an appeal lapsed before the Defendant filed his present Petition,
(2) The State would further point out to the Court that this is a
successive Petition for Relief filed by the Defendant, none of which have
shown to be of any merit, but are only fabrications of alleged fact and
assignations of alleged court case citations, the sum and substance of
which only amount to a waste of time in having to review the same; and
the State of Alabama would further aver that it would be in the best
interest of all parties and thic Court for the Defendant to be permanently
enjoined and restrained from the filing of any further pleadings or motions
in any of these causes unless such affirmatively show that they would
qualify under the provisions of Rule 32.1(b) and 32.2(a)4(b), A.R.Cr.P
* 4

WHEREFORE, PREMISES CONSIDERED, the State of Alabama moves the Court
for an Order dismissing the Defendant's successive Petition for Relief, and
such Petition as amended, for the grounds heretofore stated, separately and
severally. And the State of Alabama moves the Court for such other general
and special relief as it may be entitled to in the premises.
i

DOCUMENT 56

221

STATE OF ALABAMA

u)l

BY:

, HILLOUsMB/
Dfftrfi/t Attorney
16th Judicial Circuit

Ji

CERTIFICATE OF SERVICE
I do hereby certify that I have served a copy of the foregoing Motion
to Dismiss upon Inmate Danny L, Smith* AIS #176952, c/o Limestone Correctional
Facility, 28779 Nick Davis Road, Harvest, AL 35749 by lawful U.$. Mall,
postage prepaid, on this the 7th day of February* 2017.

u)l
r Qfm M. WIL&0U®iBlf
4
District Attorney^,/
16th Judicial Circuit

/

FEB 07 2017
• T..

v,__ y

.•iLFi o.m

DOCUMENT 62

STATE OF ALABAMA,
PLAINTIFF

229

:

IN THE CIRCUIT COURT OF

:

ETOWAH COUNTY, ALABAMA

VS.

:

DANNY L. SMITH,

i

CRIMINAL DIVISION
DEFENDANT

CASE NOS. CC-06-000269.80-DAK
CC-07-000041,80-DAK
CC-07-00G784.80-DAK
CC-07-000785.80-DAK

5

Q R D E R
THIS MATTER coming before the Court on a successive Petition
for Relief filed by the Defendant pursuant to the provisions of
Rule 32, A.R.Cr.F.? and also coming before the Court on a Motion
to Dismiss the same filed by the State of Alabama? and the Court
having proceeded to review each of the aforestated pleadings, as
well as the official court file and record in this cause? and,
upon such review
IT APPEARING TO.THE COURT that, as to the first ground alleg­
ing a plea of guilty unlawfully induced or not voluntarily made
for failure to advise the Defendant as to the minimum and maximum
ranges of punishments and to prove prior felony convictions for
purposes of imposing the provisions of the Alabama Felony Habitual
Offender Act, each of said grounds are found by the Court to be
without any basis in law or in fact? and IT FURTHER APPEARING
TO THE COURT that, as to failing to advise the Defendant as to the
minimum and maximum ranges of punishment he was facing on a plea
of guilty, exhibits in the Defendant’s Petition as well as in
the official court file and record, refle^^^g^lie was advised of

APR 03 281?
CASSANDRA '$AiVin JOHNSON
MJiT COURT CLEBK

DOCUMENT 62

230

•-V

such and acknowledged the same in the Ireland form that he
executed along with his counsel and on page 375 of the trans­
cript attached to the same? and IT FURTHER APPEARING TO THE
COURT that, as to the matter alleging failure to prove the
Defendant’s prior felong convictions, such ground is also refuted
in the Plea Agreement and Ireland forms executed by the Defendant
and a stipulation to the same by the Defendant evidenced at page
381 of the transcript, all of which are attached as exhibits to
the Defendant's Petition for Relief? and, based upon the foregoing,
such fail to provide any basis upon which to grant any relief to
the Defendant? and
IT FURTHER APPEARING TO THE COURT that, as to the additional
five grounds cited by the Defendant in his Petition, the same do
r

not address themselves to the jurisdiction of the Court? and, as
a result thereof, are therefore precluded under the provisions of
Rule 32.2(c), A.R.Cr.P

inasmuch as the Defendant did not appeal

his pleas of guilty and sentencings to the Court of Criminal
Appeals, and more than one year from the time for taking such
appeal lapsed before the Defendant filed his present Petition? and
IT FURTHER APPEARING TO THE COURT that the transcript attached
by the Defendant as an Exhibit to his Petition for Relief shows
at page 379 that the Defendant waived any right to file a Petition
for Relief under the provisions of Rule 32, A.R.Cr.P

and further

reserved no Issues for appeallate review? and
IT FURTHER APPEARING TO THE COURT that the Defendant's entire
Petition for Relief, as well as his prior Petitions, have served
no purpose other than to vex the court system

arState of

!

Ti

Alabama, such consisting only of fabrications and citing of alleged

APR 03 2317
CAS§aw

CfflCOfl CWfflT

DOCUMENT 62

231

court citations purporting to support the frivolous and false
claims of the Defendant in his Petition? and IT FURTHER APPEAR­
ING TO THE COURT that it would he in the best interests of all
parties and this Court for the Defendant to be permanently enjoined and restrained from filing any further pleadings or motions
in any of these causes unless such affirmatively show that they
would qualify under the provisions of Rule 32,1(b) and 32.2(a)&
(b), A.R.Cr.P.t and
The Court having proceeded to review all of the foregoing,
and upon due consideration of the same, it is hereby
ORDERED, ADJUDGED, AND DECREED BY THE COURT AS FOLLOWS:
(1)

That the Motion to Dismiss filed by the State of Ala­

bama in this cause be, and the same hereby is, GRANTED, for the
grounds heretofore stated, separately and severally? and that
the costs of these proceedings are hereby taxed against the
Defendant, for the collection of which, let execution or other
lawful process issue.
(2)

That the State of Alabama Department of Corrections

shall withhold and accumulate the sum of Two Hundred Forty-six
and no/100 Dollars ($246.00), such amount to be collected at the
rate of 50% from any income or asset presently available to, or
in the future becomes available to, the Defendant? and said
Department of Corrections shall immediately forward such sum to
the Circuit Clerk of Etowah County as payment for such costs when
the same has been collected in full.
(3)

That the Defendant be, and he hereby is, permanently

enjoined and restrained from filing any pleading or motion raising
>

the same or similar ground presented or raised or

whlliHjElll&
A

have

o S 201?

CASW-.JM 'Smv .!0['t!43s

CIRCUIT COURT ftfly

DOCUMENT 62

232

been presented or raised in an earlier pleading unless the Defen­
dant shows both that good cause exists why teh new ground or grounds
were not known or could not have been ascertained through reasonable
diligence when the prior Petition was decided, and that failure to
entertain such Petition would result in a miscarriage of justice.
Peoples v. State, 531 So.2d 323, 327-328 (1988).
(4)

That any and all other relief sought by the parties be,

and the same hereby is, DENIED.
(5)

That the Circuit Clerk shall serve a copy of this Order

upon the Defendant at his present place of incarceration? upon the
District Attorney for the Sixteenth Judicial Circuit? ana upon the
State of Alabama Department of Corrections at its lawful address
in Montgomery? and said Circuit Clerk shall further make due nota­
)f

tion of the same upon the records of these causes at the time the
same is done.
DONE this the

3^ <day of April,

2017.

DAVID A. KIMgERLEY.
Circuit Judge
16th Judicial Circuit

i

mim
APR 03 21117

IN THE SUPREME COURT OF ALABAMA

March 16, 2018
1170411
Ex parte Danny L. Smith. PETITION FOR WRIT OF CERTIORARI TO THE COURT OF
CRIMINAL APPEALS (In re: Danny L. Smith v. State of Alabama) (Etowah Circuit Court:
CC-06-269.80; CC-07-41.80; CC-07-784.80; CC-07-785.80; Criminal Appeals : CR-16-0782).

CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in the above referenced cause has been
duly submitted and considered by the Supreme Court of Alabama and the judgment indicated
below was entered in this cause on March 16, 2018:
Writ Denied. No Opinion. Sellers, J. - Stuart, C.J., and Bolin, Shaw, and Wise, JJ.
concur.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P„ IT IS HEREBY ORDERED
that this Court's judgment in this cause is certified on this date. IT IS FURTHER ORDERED
that, unless otherwise ordered by this Court or agreed upon by the parties, the costs of this
cause are hereby taxed as provided by Rule 35, Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certify that the foregoing is
a full, true, and correct copy of the instrument(s) herewith set out as same appear(s) of record in said
Court.
Witness my hand this 16th day of March, 2018.

Clerk, Supreme Court of Alabama

UNITED STATES DISTRICT COURT
Office of the Clerk
Northern District of Alabama
Room 140
United States Courthouse
1729 5th Avenue North
Birmingham, Alabama 35203

This is to confirm that on

5>

1*1 IB

, you filed a civil action

in the U.S. District Court, Northern District of Alabama.

v>.
number

^ AA f <e"V
1:18-CV-00688-MHH-JEO

The action was styled

and was assigned case docket
. This case number must be

included with all future pleadings and correspondence involving this action. All pleadings
and correspondence must be sent to the address in the above left hand comer.

This office will keep you informed of the status of your action by sending you copies
of all orders entered by the Court.

It is your responsibility to keep the Court informed ofyour current address, and failure
to do so may result in dismissal of your action.

SHARON N. HARRIS
CLERK OF COURT

\ '

appendix

S4
IN THE CIR

jIT

COURT OF ETOWAH COUk* Y, ALABAMA

STATE OF ALABAMA
Vs.

fy/iM//on/s ,5w/rV
Defendant.
PLEA AGREEMENT

D“ «* —
1.

Defendaiprteithdraws •jlgrUar

enters a plea of GVILTy" ** ^

±<C— as charged in the complaint, information or indictment •
*------------- —" RH.LY YATES
to the charge of,______ '
CLERK, CIRCUIT COL'FT
2.

Bothtjp^State and the Defendant waive pre-sentence report:

i

rz>

£Losrr<
.g«?

7~Z>-

MOTE; S^Znce incites payment ft-JuSSSf^?^tT^
appUctibU), and fines, assessments, and Crime Victims Comnens’ar ™e^S’ •fSef (where
Cz!_£h%L rz> ogJ&OTTD.<^,.0., w /ksi^ ^ cJ^fis Compensation Commission fees.

<um> ffr?oms,T u,~

a

^ UL

4.

time per month to
^

5.

/J7vK>

the prntati'nt,
7

°

nr tn

■

r

^

«*£££ J*

® Defendant to report at least one

0" ----------Community Corrections.
/
C&'V££>ASU’M~ &-/ ttZH&Z/

P£ y^ ^ <J£3^72S"AOTU yz

■withdraw his plea^f gntihSdhteri^fto

Tin

righn°' ** &ppeal) Ms ^to

the Alabama Rules of Criminal Procedure. The Defendant waives Llv and^Ld^/'f8^ Ru!e 32 of
requests which have been made, or which could havITbelrT U motl°^s' defeases, objections, or
reserves NO issues for appellate review.
d
thls C&Se' The D®fe«dant specifically
7,
Defendant
Cun*L Ita
case, exploration and
presentation of possible defenses, advice and.all other representation
The Defendant agrees that he-is
pleading guilty freely and voluntarily having b een
adequately and satisfactorily represented, by Counsel.
8.

oCSst“s8ieSce;v ls re#d«? He*'^
hu-ther. he understands that if all such costs are not
^^
^■*||,Cov£fcprder in
maje minimum monthly payments, beginning on a specific date, set fotS tST"* 0°?^ b*W"4 *“
9.
payment of
and the Defendant will be giventen (10) daysto^

^ Thf
tte bSc“ JSTf

not paid in full, a writ will be issued for his/her immediate arrest.

ro

‘
^ °

»

£3 in tire
costs,
ince is

X.

/z3?
10.
Other than ..nat is contained in this document
NO PROMISES OR
REPRESENTATIONS HAVE BEEN MADE BY THE PROSECUTOR
OR BY ANYONE ELSE,
NOR HAVE TO
ANYPIPAn
THREATS
BEEN MADE
’
DEFENDANT
pitittv
^
°R F0RCE tlSED,
TO INDUCE THE
iJ&r jbJMUAN T TO PLEAD GUILTY. This Document is the sole agreement and underran
between the State of Alabama, the Defendant, and Defendant’s Counsel.
understanding
11. _ The Defendant has not-had any drugs, medications or alcohol within the oast'
hours, and is competent to enter the plea agreement stated above.
'
P
48
n , ^Tld thil C^Urt r^e*t tMs agree^nt, it is understood that neither the
Defendant nor the State of Alabama are bound hereby, and the Defendant is free to
withdraw his/her plea of guilt\ and proceed to trial.
ACKNOWLEDGMENTS

j * kave
document, DISCUSSED it with my attorney, and UNDERSTAND
and AGREE with all of its provisions, both individually d totally.
uiNDbRbrAND
DATE

v

DEFEND.

2.

I have discussed this case with the Defendant in detail and have advised the
Defendant of the Defendant’s rights and all possible defenses. The Defendant has conveved
to me that the Defendant understands this document and consents to “its temis I
believe the.plea and. dispositions set forth herein are appropriate under the facts of this

of the plea of 8Uilt as indicated ab0- -d

(3. OuU>-4/

DATE

3.

-m°s ^

COUNSEL FOR DEFENDANT

Oiave reviewed this document and agree to all of its provisions.
/

DATE

SfeLV—VJtTES------

PROSECUTOR

The Court9

plesk,- CIRCUIT COURT-

having reviewed the proposed agreement:

- accepts the agreement of the parties

- REJECTS THE AGREEMENT OF THE PARTIES

Monthly payments are hereby set in this cause in

the amount

T*

$.

beginning ON THE ✓TN
Defendant is advised of same o THIS) DA'

DATE

______ _

shh

of:

vi
DAY OF
THE RECORD IN^fel^CoU^r.

CIRCUIT JUDGE

ft. %o6^.
“ ‘

11

ss t3
Ssi

E*-l

383
1

charged and the consequences of

2

pleading guilty to those crimes,

3

that the defendant understandingly and

4

voluntarily pled guilty and waived his

5

constitutional rights in these

6

matters,

7

defendant’s plea of guilt and waiver

8

of his constitutional rights be

9

accepted and entered into the record

10

and

I hereby order the

of the Court.

11

Let the record reflect that I

12

considered the Sentencing Standards in

13

this matter,

14

pursuant to the plea agreement entered

15

into by the parties and also will

16

sentence Mr.

17

offender with three prior felony

18

convictions stipulated to.

19

but will sentence

Smith as a habitual

Pursuant to the plea agreement,

20

Mr.

21

in the state penitentiary in regards

22

to CC-07-784 .01,

23

CC-20 06-2 6 9 and CC-2006-416 .

24

going to run all those sentences

25

concurrent.

Smith,

I'm sentencing you to life

784.02,

CC-07-786,
I'm

Ex-1

appendix

196

IN THI-: CIRCUIT COURT OF ETOWAH COUNTY. ALABAMA
MATEO! ALABAMA

VS.

CASE NO.: CC-2006-269-DAK

DANNY LOUIS SMITH
SENTENCING ORDER
On the 2511 day of April, 2006, the Defendant filed his Flea of Not Guilty and Waiver at
Arraignment, and on the 7’l,day of August, 2007 the Defendant entered his plea of Guilty to the
offense of Assault - First Degree as charged in the indictment.
On the 7" day of August, 2008, Defendant present in open Court with his/her attorney
present and being asked by the Court if he/she has anything to say why the Judgment of the Court
and the Sentence of the Law should not be pronounced upon him/her, Defendant made no
response.
The Court has rev iewed and considered the Sentencing Standards. It is therefore.
CONSIDERED BY THE Court and it is the JUDGMENT AND SENTENCE of the Court that
the Defendant be imprisoned in the State Penitentiary , as a habitual offender w ith at least three
(3) prior felonies for a term of life. The Defendant's sentences are to run concurrently in CC2006-269, CC-2007-41, CC-2007-784.01, CC-2007-784.02, CC-2O07-785. CC-2007-786. and
CC-2007-787.
Defendant is further Ordered to pay the court costs incurred herein, restitution by
affidavit within sixty (60) days, and Defendant after notice of affidav it has sixty (60) days to
object to same, and an Alabama Crime Compensation Commission Assessment of $50.00.
Defendant's first pay ment in the amount of $100.00 is due and payable sixty (60) days from his
release from prison and a like payment each and every thirty' day's thereafter until all court
ordered monies are paid in full, ft is further Ordered that the Defendant be credited with time
spent in jail awaiting trial. Defendant is further Ordered placed on an 11:00 p.m. curfew .
The Defendant having waived his/her right of appeal as part of the plea agreement herein,
the Court specifically finds:
I.

Defendant has reserved no issues for appellate review. Defendant and the Court
have entered into a colloquy wherein the Defendant was advised of the
consequences of waiving his/her appeal right, his/her right to file a motion to
withdraw hisher plea within (30) thirty days, and her/her right of appeal in the
event the Court denies his/her motion to withdraw his/her plea.
\

DONE this the 7'1' day of August, 2008.
J

cc:

\

!!

t

/
David ATRiinberley, Circuit Judge
District Attorney
Dale Slracencr. Esq.
Sheriffs Office

■ L i

>o.

B

JUL 2 0 2009
EXHIBIT

1
§
re*-.:

7—v

CC

BILLY YATES
CLERK, CIRCUIT COURT

197
*

IN THE CIRCUIT COURT OF ETOWAH COUNTY, ALABAMA
ST ATE OF ALABAMA
VS,

.*

CASE NO.: CC-2007-41 -DAK

DANNY LOUIS SMITH
SENTENCING ORDER
On the 31 “ day of January, 2007, the Defendant filed his Plea of Not Guilty and W'aiver
at Arraignment, and on the 7 day of August, 2007 the Defendant entered his plea of Guilty to the
offense of Violation of Community' Notification Act as charged in the indictment.
On the 7 day of August, 2008, Defendant present in open Court with his/her attorney
present and being asked by the Court it he/she has anything to say’ why' the Judgment of the Court
and the Sentence of the Law should not be pronounced upon him/her, Defendant made no
response.
The Court has reviewed and considered the Sentencing Standards. It is therefore,
CONSIDERED BY THE Court and it is the JUDGMENT AND SENTENCE of the Court that
the Defendant be imprisoned in the State Penitentiary , as a habitual offender with at least three
(3) prior felonies for a term of life. The Defendant’s sentences are to run concurrently in CC2006-269, CC-2007-41, CC-2007-784.01, CC-2007-784.02. CC-2007-785, CC-2007-786. and
CC-2007-787.
Defendant is further Ordered to pay the court costs incurred herein, restitution by
affidavit within sixty' (60) days, and Defendant after notice of affidavit has sixty' (60) days to
object to same, and an Alabama Crime Compensation Commission Assessment of $50.00.
Defendant’s first payment in the amount of $100.00 is due and payable sixty (60) days from his
release from prison and a like pay'ment each and every' thirty days thereafter until all court
ordered monies are paid in full. It is further Ordered that the Defendant be credited with time
spent in jail awaiting trial. Defendant is further Ordered placed on an 11:00 p.m. curfew .
The Defendant having waived his/her right of appeal as part of the plea agreement herein,
the Court specifically finds:
1.

Defendant has reserved no-issues for appellate-review. -Defendant and the Court
have entered into a colloquy wherein the Defendant was advised of the
consequences of waiv ing his/her appeal right, his/her right to file a motion to
withdraw his/her plea within (30) thirty days, and her/her right of appeal in the
event the Court denies his/her motion to withdraw' his/her plea.
DONE this the 7,b day of August, 2008./'

cc:

District Attorney
Dale Stracener, Esq.
Sheriff’s Office

T.d

nd A. Kimberley, Circuit Judgi

.LED

FKED

JUL 2 0 2009

AUG 0 8 2008

BILLY YATES
CLERK, CIRCUIT COURT

BILLY YATES
CLERK, CIRCUIT Or»

EXHIBIT

'D'D

is —
a.

-198
#
:

IN THE CIRCUIT COURT OF ETOWAH COUNTY, ALABAMA
STATE OF ALABAMA
VS.
*

CASE, NO.: CC-2007-784.01-DAK

DANNY LOUIS SMITH
SENTENCING ORDER
On the 18"' day of July. 2007, the Defendant tiled his Plea of Not Guilty and Waiver at
Arraignment, and on the 7th day ol August, 2007 the Defendant entered his plea of Guilty to the
offense of Burglary - First Degree as charged in the indictment.
On the 7th day of August, 2008, Defendant present in open Court with his/her attorney
present and being asked by the Court if he/she has anything to say why the Judgment of the Court
and the Sentence of the Law should not be pronounced upon him/her, Defendant made no
response.
The Court has reviewed and considered the Sentencing Standards. It is therefore,
CONSIDERED BY THE Court and it is the JUDGMENT AND SENTENCE of the Court that
the Defendant be imprisoned in the State Penitentiary , as a habitual offender w ith at least three
(3) prior felonies for a term of life. The Defendant’s sentences are to run concurrently in CC2006-269, CC-2007-41, CC-2007-784.01, C-C-2007-784.02. CC-2007-785, CC-2007-786. and
CC-2007-787.
Defendant is further Ordered to pay the court costs incurred herein, restitution by
affidavit w ithin sixty (60) days, and Defendant after notice of affidavit has sixty (60) days to
object to same, and an Alabama Crime Compensation Commission Assessment of $50.00.
Defendant’s first payment in the amount of $100.00 is due and payable sixty (60) day's from his
release from prison and a like payment each and every thirty days thereafter until all court
ordered monies are paid in full. It is further Ordered that the Defendant be credited with time
spent in jail awaiting trial. Defendant is further Ordered placed on an 11:00 p.m. curfew .
1 he Defendant having waived his/her right of appeal as part of the plea agreement herein,
the Court specifically finds:
- 1.

-Defendant has reserved no issues for appellate reviewr Defendant and the Court
have entered into a colloquy wherein the Defendant was advised of the
consequences of waiving his/her appeal right, his/her right to file a motion to
w ithdraw his/her plea within (30) thirty days, and her/her right of appeal in the
event the Court denies his/her motion to withdraw his/her plea.
\
DONE this the l'h day of August, 2008.
\
\
dvidT? Kimberley, Circuit Jud

cc:

District Attorney
Dale Stracener. Esq.
Sheriff s Office

1>o.

JUL 2 0 2003
BILLY YATES
CLERK, CIRCUIT" COURT

EXHIBIT
2
9
CD
§
a.

199

IN THE CIRCUIT COURT Of ETOWAH COUNTY, ALABAMA
STATE OF ALABAMA
VS.

CASE NO.: CC-2007-784.02-DAK

DANNY LOUIS SMITH
SENTENCING ORDER
On the 18 day ol July, 2007. the Defendant filed his Plea of Not Guilt} and Waiver at
Arraignment, and on the 711, day of August, 2007 the Defendant entered his plea of Guilts to the
oitense of Assault - Second Degree as charged in the indictment.
On the l" day of August, 2008, Defendant present in open Court with his/her attorney
present and being asked by the Court if he/she has anything to say w hy the Judgment of the Court
and the Sentence of the Law should not be pronounced upon him/her, Defendant made no
response.
The Court has reviewed and considered the Sentencing Standards. It is therefore,
CONSIDERED B Y THE Court and it is the JUDGMENT AND SENTENCE of the Court that
the Defendant be imprisoned in the State Penitentiary , as a habitual offender w ith at least three
(3) pi ior felonies for a term of life. The Defendant's sentences are to run concurrently in CC2006-269, CC-2007-41, CC-2007-784.01, CC-2007-784.02, CC-2007-785, CC-2007-786 and
CC-2007-787.
Defendant is further Ordered to pay the court costs incurred herein, restitution by
affidavit within sixty (60) days, and Defendant after notice of affidavit has sixty (60) days to
object to same, and an Alabama Crime Compensation Commission Assessment of $50.00.
Defendant’s first payment in the amount of $100.00 is due and payable sixty (60) days front his
release front prison and a like payment each and every thirty days thereafter until all court
ordered monies are paid in full. It is further Ordered that the Defendant be credited with time
spent in jail awaiting trial. Defendant is further Ordered placed on an 1 ] :00 p.nt. curfew .
1 he Defendant having waived his/her right of appeal as part of the plea agreement herein,
the Court specifically finds:
-

L

- Defendant has reserved no issues-for appellate review. Defendant and the Court
have entered into a colloquy w herein the Defendant w as advised of the
consequences of waiving his/her appeal right, his/her right to file a motion to
w ithdraw his/her plea w ithin (30) thirty days, and her/her right of appeal in the
event the Court denies his/her motion to withdraw his/her plea.
DONE this the 7"' day of August, 2008.

i

David A. Kimberley , Circuit Judge
ee:

District Attorney
Dale Stracener, Esq.
Sheriff s Office

P.O.

JUL 2 0 2009
BILLY YATES

EXHIBIT

CLERK, CIRCUIT COURT

§

g

fP

200

IN THH CIRCUIT COURT 01 ITOWAH COl !NTY, ALABAMA
STATE OF ALABAMA

vs.

CAST NO.: CC-2007-785-DAK

DANNY LOUIS SMITH
SENTENCING ORDER
On the 7"’
,
. day o( August, 2008. the Defendant entered his plea of guilty to the offense of
( riminaI Mischief - Second Degree, as charged.

On the 7"' dav of August. 2008, Defendant present in open Court with his/her attorney
present and being asked by the Court if he 'she has anything to say why the Judgment of the Court
and the Sentence of the Law should not be pronounced upon him/her. Defendant made no
response.
It is therefore, CONSIDERED BY THE Court and it is the JUDGMENT AND
SENTENC E of the Court that the Defendant be imprisoned for twelve (12) months to be served at
the same location as his current felony cases. 1 he Defendant's sentences are to run concurrently
in CC-2006-269, CC-2007-41, CC-2007-784.01. CC-2007-784.02, CC-2007-785 CC-2007-786
and CC-2007-787.
*
Defendant is further Ordered to pay the court costs incurred herein, restitution in the
amount of $500 to Mary Butcher, and an Alabama Crime Compensation Commission Assessment
of $25.00. Defendant's first payment in the amount of $100.00 is due and payable sixty (60) days
from his release from prison and a like payment each and every thirtv days thereafter until all
court ordered monies are paid in full. It is further Ordered that the D*efendant be credited with
time spent in jail awaiting trial. Defendant is further Ordered placed on an 11:00 p.m. curfew.
The Defendant having waived his/her right of appeal as part of the plea agreement herein
the Court specifically finds:
1.

Defendant has reserved no issues for appellate review. Defendant and the Court
have entered into a colloquy w herein the Defendant was advised of the
consequences of waiving his/her appeal right, his/her right to file a motion to
withdraw his/her plea within (30) thirty days, and herZher right of appeal in the
event the Court denies his/her motion to withdraw his/her plea.
DONE this the 7,h day of August, 2008/

cc:

District Attorney
Dale Stracener, Esq.
Sheriffs Office

?-o.

FfLED
JUL 2 0 2009
BILLY YATES
CLERK, CIRCUIT COURT

